<html>
<title> - SNIFFING OUT TERRORISM: THE USE OF DOGS IN HOMELAND SECURITY</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                        SNIFFING OUT TERRORISM:
                  THE USE OF DOGS IN HOMELAND SECURITY

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON PREVENTION OF
                 MANAGEMENT, INTEGRATION, AND OVERSIGHT

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 28, 2005

                               __________

                           Serial No. 109-42

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
31-902                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�0900012007


                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman

Don Young, Alaska                    Bennie G. Thompson, Mississippi
Lamar S. Smith, Texas                Loretta Sanchez, California
Curt Weldon, Pennsylvania            Edward J. Markey, Massachusetts
Christopher Shays, Connecticut       Norman D. Dicks, Washington
John Linder, Georgia                 Jane Harman, California
Mark E. Souder, Indiana              Peter A. DeFazio, Oregon
Tom Davis, Virginia                  Nita M. Lowey, New York
Daniel E. Lungren, California        Eleanor Holmes Norton, District of 
Jim Gibbons, Nevada                  Columbia
Rob Simmons, Connecticut             Zoe Lofgren, California
Mike Rogers, Alabama                 Sheila Jackson-Lee, Texas
Stevan Pearce, New Mexico            Bill Pascrell, Jr., New Jersey
Katherine Harris, Florida            Donna M. Christensen , U.S. Virgin 
Bobby Jindal, Louisiana              Islands
Dave G. Reichert, Washington         Bob Etheridge, North Carolina
Michael McCaul, Texas                James R. Langevin, Rhode Island
Charlie Dent, Pennsylvania           Kendrick B. Meek, Florida
Ginny Brown-Waite, Florida

                                 ______

         Subcommittee on Management, Integration, and Oversight

                     Mike Rogers, Alabama, Chairman

Christopher Shays, Connecticut       Kendrick B. Meek, Florida
John Linder, Georgia                 Edward J. Markey, Massachusetts
Tom Davis, Virginia                  Zoe Lofgren, California
Katherine Harris, Florida            Sheila Jackson-Lee, Texas
Dave G. Reichert, Washington         Bill Pascrell, Jr., New Jersey
Michael McCaul, Texas                Donna M. Christensen, U.S. Virgin 
Charlie Dent, Pennsylvania           Islands
Peter T. King, New York Ex Officio   Bennie G. Thompson, Mississippi Ex 
                                     Officio

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Mike Rogers, a Representative in Congress from the 
  State of Alabama, and Chairman, Subcommittee on Management, 
  Integration and Oversight:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Kendrick B. Meek, a Representative in Congress from 
  the State of Florida, and Ranking Member, Subcommittee on 
  Management, Integration and Oversight..........................     3
The Honorable Peter T. King, a Representative in Congress from 
  the State of New York, and Chairman, Committee on Homeland 
  Security:
  Prepared Statement.............................................     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  from the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security..............................................     4
The Honorable Michael McCaul, a Representative in Congress from 
  the State of Texas.............................................    25
The Honorable Jackson-Lee, a Representative in Congress from the 
  State of Texas.................................................    22
The Honorable Bill Pascrell, Jr., a Representative in Congress 
  from the State of New York.....................................    27

                               Witnesses
                                Panel I

Special Agent Terry Bohan, Chief, National Canine Training and 
  Operations Support Branch, Bureau of alcohol, Tobacco, Firearms 
  and Explosives, Department of Justice:
  Oral Statement.................................................    16
  Prepared Statement.............................................    17
Mr. David Kontny, Director, National Explosives Detection Canine, 
  Team Program, Transportation Security Administration, 
  Department of Homeland Security:
  Oral Statement.................................................    11
  Prepared Statement.............................................    13
Mr. Lee Titus, Director of Canine Programs, U.S. Customs and 
  Border Protection, Department of Homeland Security:
  Oral Statement.................................................     6
  Prepared Statement.............................................     9

                                Panel II

Dr. C. Michael Moriarty, Associate Provost and Vice President for 
  Research, Auburn University:
  Oral Statement.................................................    36
  Prepared Statement.............................................    38
Ms. Terri Recknor, President, Garrison and Sloan Canine 
  Detection:
  Oral Statement.................................................    43
  Prepared Statement.............................................    46
Chief Ralph Eugene Wilson, Jr., Chief of Police, Metropolitan 
  Atlanta Rapid Transit, Authority (MARTA):
  Oral Statement.................................................    33
  Prepared Statement.............................................    35


                        SNIFFING OUT TERRORISM:
                  THE USE OF DOGS IN HOMELAND SECURITY

                              ----------                              


                     Wednesday, September 28, 2005

             U.S. House of Representatives,
                    Committee on Homeland Security,
                                Subcommittee on Management,
                                Integration, and Oversight,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 11:14 a.m., in 
Room 311, Cannon House Office Building, Hon. Mike Rogers 
[chairman of the subcommittee] presiding.
    Present: Representatives Rogers, McCaul, Dent, Meek, 
Thompson, Jackson-Lee, and Pascrell.
    Mr. Rogers. [Presiding.] The Committee on Homeland 
Security, Subcommittee on Management, Integration, and 
Oversight, will come to order.
    I would first like to welcome our witnesses and thank them 
for taking time out of their schedules to be here today.
    We are holding this hearing today to examine how dogs are 
being used to assist Federal law enforcement officers in 
homeland security missions.
    The hearing follows a live demonstration and a closed 
briefing earlier this morning, during which Members had an 
opportunity to raise issues with our Federal witnesses that 
were law-enforcement sensitive.
    I wish to first welcome our distinguished witnesses and 
thank them for taking the time out of their busy schedules to 
be with us today.
    Dogs may be considered not only man's best friend but also 
one of our best defenses against terrorism. They have a keen 
sense of smell and a strong ability to process smell. Research 
shows that while humans have 5 million olfactory cells in their 
noses, dogs have over 300 million.
    Research also shows that the part of the brain responsible 
for processing smell is up to 40 times larger in dogs than in 
humans. As we will hear from our witnesses today, dogs are used 
to detect explosives, narcotics, bulk cash and concealed 
humans.
    Dogs are also being used in search and rescue operations 
such as those taking place in areas ravaged by Hurricanes 
Katrina and Rita.
    After the London bombings in July, dogs were deployed 
throughout London's subway system, as well as in mass transit 
systems here at home. In a mass transit setting, dogs are one 
of the best tools available to screen passengers and their bags 
for explosives, primarily because dogs can move easily through 
crowds and can be moved quickly from one location to another.
    Dogs are also an important complement to the explosive 
detection technologies that may be too cumbersome, less mobile 
and more costly to use.
    Dogs, however, have inherent limitations, most of which 
were explored during our closed hearing. While it is important 
to expand the use of dogs where appropriate, it is not the 
panacea that some have suggested for protecting our subway 
systems or detecting concealed weapons.
    Today's public session will explore a range of other issues 
related to the use of dogs in homeland security. Our specific 
questions include: how are dogs trained? Are the multiple 
Federal training programs coordinated effectively?
    What are the costs associated with training and can they be 
reduced? And should better guidelines be developed to ensure 
the effectiveness of dogs that state and local agencies buy 
from private dog trainers?
    On our first panel today we are pleased to welcome experts 
in the training and deployment of dogs from two agencies in the 
Department of Homeland Security--U.S. Customs and Border 
Protection and the Transportation Security Administration.
    And I would also like to mention that today the 
Transportation Security Administration is announcing an 
expansion of its national explosive detection canine team 
program to 10 mass transit and commuter rail systems across the 
country.
    One of those systems is right here in the nation's capital, 
which will see three bomb dogs. We look forward to hearing more 
about this initiative from TSA witnesses.
    We also have a representative from the Bureau of Alcohol, 
Tobacco, Firearms and Explosives in the Department of Justice.
    On our second panel, I am especially pleased to welcome a 
representative from Auburn University, which operates the 
Canine Detection Training Center located near my hometown in 
Anniston, Alabama. Auburn University's canine training program 
has been chosen by a number of Federal, state and local 
agencies to train their dogs because of the range of training 
services it offers.
    We also will hear from the chief of police for the 
Metropolitan Atlanta Rapid Transit Authority, which has two 
dogs trained by Auburn University.
    And finally, we will hear from a representative from a 
private canine training company in Florida which works 
extensively with the cruise line industry.
    Once again, I would like to thank the witnesses for joining 
us today. I look forward to their testimony on this important 
topic.

        Prepared Opening Statement of the Honorable Mike Rogers

    We are holding this hearing today to examine how dogs are being 
used to assist Federal law enforcement officers in homeland security 
missions.
    The hearing follows a live demonstration, and a closed briefing 
earlier this morning, during which Members had an opportunity to raise 
issues with our Federal witnesses that were law-enforcement sensitive.
    I would first like to welcome our distinguished witnesses, and 
thank them for taking time out of their busy schedules to be with us 
today.
    Dogs may be considered not only man's best friend, but also one of 
our best defenses against terrorism.
    They have a keen sense of smell, and a strong ability to process 
smell.
    Research shows that while humans have five million olfactory cells 
in their noses, dogs have over 300 million.
    Research also shows that the part of the brain responsible for 
processing smell is up to 40 times larger in dogs, than in humans.
    As we will hear from our witnesses today, dogs are used to detect 
explosives, narcotics, bulk cash, and concealed humans.
    Dogs also are being used in search and rescue operations, such as 
those taking place in areas ravaged by Hurricane Katrina and Hurricane 
Rita.
    After the London bombings in July, dogs were deployed throughout 
London's subway system, as well as in mass transit systems here at 
home.
    In the mass transit setting, dogs are one of the best tools 
available to screen passengers and their bags for explosives, primarily 
because dogs can move easily through crowds and can be moved quickly 
from one location to another.
    Dogs are also an important complement to explosives detection 
technologies that may be too cumbersome, less mobile, and more costly 
to use.
    Dogs, however, have inherent and significant limitations, most of 
which were explored during our closed session.
    While it is important to expand the use of dogs where appropriate, 
it is not the panacea that some have suggested for protecting our 
subway systems, or detecting concealed explosives.
    Today's public session will explore a range of other issues related 
to the use of dogs in homeland security.
    Our specific questions include: How are dogs trained? Are the 
multiple Federal training programs coordinated effectively? What are 
the costs associated with this training, and can they be reduced?
    And, should better guidelines be developed to ensure the 
effectiveness of dogs that state and local agencies buy from private 
dog trainers?
    On our first panel today, we are pleased to welcome experts in the 
training and deployment of dogs from two agencies in the Department of 
Homeland Security--U.S. Customs and Border Protection, and the 
Transportation Security Administration.
    We also have a representative from the Bureau of Alcohol, Tobacco, 
Firearms and Explosives in the Department of Justice.
    On our second panel, I am especially pleased to welcome a 
representative from Auburn University, which operates the Canine 
Detection Training Center located in my hometown of Anniston, Alabama.
    Auburn University's canine training program has been chosen by a 
number of Federal, state, and local agencies to train their dogs 
because of the range of training services it offers.
    We also will hear from the Chief of Police for the Metropolitan 
Atlanta Rapid Transit Authority, which has two dogs trained by Auburn 
University.
    And finally, we will hear from a representative from a private 
canine training company in Florida, which works extensively with the 
cruise line industry.
    Once again, I thank the witnesses for joining us today, and look 
forward to their testimony on this important topic.
    I now yield. . .

    Mr. Roers. I now would like to yield to the Ranking Member, 
my friend and colleague from Florida, Mr. Meek.
    Mr. Meek. Thank you, Mr. Chairman.
    I pretty much made my opening statement during the 
demonstration end, but I just want to say again that any 
testimony that will be helpful for us to be able to explain to 
not only colleagues here in the Congress but on the local and 
state level the reason why handler and canine officer has to 
have the kind of training, the kind of down time, so that they 
can be effective while they are in service.
    I think it is important. I think Americans also have to go 
through, and we in the Congress have to go through, quite a bit 
of education, of understanding why we have to have so many 
canines and officers and handlers in a particular area to cover 
a train station or to cover an airport gate.
    And that understanding, because I believe that the key to 
defending the homeland--and I hope that you can talk about this 
a little bit more--is to make sure that the American public is 
comfortable with securing themselves, that we have--we get a 
lot of complaints about the TSA and TSA officers because they 
are doing their jobs.
    I believe that our canine officers can help us not only at 
airport gates but also in train stations and cruise ship areas 
of doing a thorough search, doing a search that, one, does not 
feel that it is intrusive, and so I feel the expansion of this 
program is going to be paramount to protecting America.
    I look forward to hearing your testimony, and I definitely 
have some questions afterwards.
    I yield back. Thank you.
    Mr. Rogers. I thank the gentleman.
    The Chair now recognizes the Ranking Member of the full 
committee, my friend and colleague from Mississippi, Mr. 
Thompson.
    Mr. Thompson. Thank you, Mr. Chairman.
    As we struggle to make our transportation systems and 
critical infrastructure more secure, canine detection systems 
are an invaluable tool in that effort.
    As we saw in the canine demonstration, dogs are indeed 
versatile, mobile explosive detection systems. I firmly believe 
that greater utilization of these four-legged inspectors make a 
lot of sense.
    In dense, dynamic environments such as airports and train 
platforms, trained explosive detection dogs are able to not 
only screen passenger and bags but serve as a deterrent to 
would-be terrorists.
    I am particularly interested in hearing how they would 
enhance security in the rail and transit environment and can 
help screen air cargo. With respect to air cargo, the 9/11 
Commission put securing planes from explosive cargo on its 
unfinished agenda.
    How do we close the air cargo gap, given the vastness and 
variation of air cargo? Every day the U.S. air cargo supply 
chain handles more than 50,000 tons of cargo. There are few 
technological solutions for screening cargo, which is often 
palletized and shrink-wrapped.
    I understand that TSA's pilot with explosive detection dogs 
indicated that canines show great promise as a screening tool 
in the air cargo environment. I look forward to hearing from 
our witness from TSA about how TSA is doing to ensure that dogs 
are integrated into our layer approach to cargo security.
    I am also interested in seeing greater utilization of dogs 
in the rail and transit environment. We know from both the 9/11 
attackers and now the London bombers that terrorists generally 
do a run-through before committing their attack.
    Increased visibility of explosive detection dogs together 
with surveillance cameras and a perceptible law enforcement 
presence may well make a terrorist think twice.
    With all that dogs can do, the impulse may be there to use 
them to the exclusion of other technology and approaches. That 
would be a mistake. When it comes to securing our power plants, 
rail systems and other vital infrastructures, we need layered 
approaches that integrates different technologies, surveillance 
and detection dogs.
    Like with any explosive detection system, dogs need 
maintenance. The key distinction is that dogs rely on their 
handlers for care, not engineers. Also, like explosive 
detection systems, dogs perform differently depending on heat, 
cold and other environmental factors.
    I look forward to hearing from our witnesses on what dogs 
can and cannot do. I know that all around this nation, in 
communities large and small, there is a great deal of interest 
in getting more dogs to do explosive detection.
    Given that federal resources are far too limited to meet 
the need, they are forced to look to private vendors. However, 
finding a reputable canine detection company is not as easy as 
you would think. There are no federal standards and a whole lot 
of associations out there that are happy to certify a dog, for 
a fee, I might add.
    State and local governments and private firms that oversee 
critical infrastructures, like oil refineries and water 
treatment plants, need to trust that if they acquire a dog team 
it can do the job.
    With the growth in interest in explosive detection dogs, we 
must start looking at national standards and certification.
    Again, thank you to the witness who joined us, and I look 
forward to your testimony.
    Mr. Rogers. Thank the gentleman.
    I would remind other members of the committee that their 
opening statements may be submitted for the record.

       Prepared Opening Statement of the Honorable Peter T. King

    Thank you, Mr. Chairman, for holding this important hearing today.
    As we saw after the July terrorist bombings in London, and more 
recently in the recovery efforts for Hurricanes Katrina and Rita, dogs 
are a versatile resource not only for the Department of Homeland 
Security, but also for law enforcement officials at all levels of 
government.
    In the immediate aftermath of Hurricane Katrina, U.S. Customs and 
Border Protection was among other Federal agencies that deployed urban 
search and rescue dogs to the area, as well as cadaver detection dogs. 
CBP sent three of its specially trained dogs to assist in locating the 
deceased.
    In my home State of New York, dogs are an integral part of the 
daily activities of the New York Police Department (NYPD) and the Port 
Authority of New York and New Jersey. The NYPD has three units that use 
canine teams--the Narcotics Unit, the Bomb Squad, and the Patrol Unit. 
The Narcotics Unit has eight drug detection dogs; the Bomb Squad has 19 
explosives detection dogs; and the Patrol Unit has 38 dogs, several of 
which are search and rescue and cadaver dogs that are certified by the 
Federal Emergency Management Agency.
    This morning's hearing will offer an opportunity to learn more 
about these dogs' capabilities and how they contribute to the Federal 
government's layered defense against terrorism. While dogs are not a 
perfect solution, they can be easily and quickly deployed to a variety 
of venues, and they support homeland security as well as non-homeland 
security missions.
    This hearing will also offer an opportunity to examine the status 
of the Department of Homeland Security's efforts to consolidate some of 
its overlapping programs. CBP announced last month that, effective 
October 1, 2005, it will be consolidating its two canine training 
programs under one office. I look forward to hearing more about how 
this effort will improve the efficiency and effectiveness of CBP's 
canine training programs.
    I am pleased to see that the panelists today represent a range of 
perspectives regarding the use of detection canines. We have several 
agencies that train dogs for use at the Federal, state, and local 
level; we have researchers who are working to improve dogs' detection 
capabilities; and we have a local law enforcement agency that uses the 
dogs trained by two agencies here today.
    I look forward to hearing more about how dogs are helping protect 
the homeland every day, and how we can further improve the training and 
coordination of Federal canine programs to make the most of these dogs' 
special talents.
    Thank you, Mr. Chairman.

    Mr.  Rogers. We are pleased to have two panels of 
distinguished witnesses before us today on this important 
topic.
    I would like to remind the witnesses that their entire 
statements may be submitted, but we would ask that you try to 
limit your opening statements to 5 minutes so that we can move 
on to questions.
    The Chair now calls the first panel and recognizes Mr. Lee 
Titus, Director of Canine Programs at the U.S. Customs and 
Border Protection, Department of Homeland Security.
    Mr. Titus?

                     STATEMENT OF LEE TITUS

    Mr. Titus. Good morning, Chairman Rogers, Ranking Member 
Meek, members of the subcommittee. It is a privilege to appear 
before you today to discuss the training of canine teams within 
U.S. Customs and Border Protection.
    I want to begin by expressing my gratitude to the committee 
for holding this hearing on canine teams, helping us to bring 
attention to the accomplishments to the forefront of this 
important program and the issues facing the program.
    CBP's canine law enforcement program, one of several 
Department of Homeland Security canine programs that protects 
life and property, contributes to the department's law 
enforcement and antiterrorism missions and is the largest 
federal canine law enforcement program in the United States.
    CBP has trained and deployed thousands of canine teams in 
support of our antiterrorism and traditional missions over the 
years. Working together at and between our nation's official 
ports of entry, our canine teams are a critical component in 
CBP's layered approach to border protection and our ability to 
secure our border, protect our homeland and defend against the 
threats posted by potential terrorists, explosives, chemical 
weapons, illegal aliens, narcotics and harmful agricultural 
pests and products.
    The canine enforcement program is responsible for a 
significant portion of narcotics seizures made by Customs and 
Border Protection at ports of entry, checkpoints and between 
official ports of entry, accounting for more than 11,600 
narcotics seizures, totaling over 1,804,000 pounds of narcotics 
for fiscal year 2004.
    The canine enforcement program was responsible for 
detecting over 40,000 concealed humans and seizures of U.S. 
currency. It detected U.S. currency worth more than $33 million 
in fiscal year 2004.
    During fiscal year 2004, the canine enforcement program was 
accountable for over 68,000 quarantine material interceptions 
of plant materials and over 17,900 quarantine material 
interceptions of animal products with a combined weight of over 
6,500 pounds.
    Beginning next month, CBP canine team training will be 
realigned and consolidated under CBP's Office of Training and 
Development. It is important to note that the operational 
control in the field will be retained by the Offices of Field 
Operations and Border Patrol.
    This consolidation of canine training is a major step for 
CBP toward our goal of forging a single, unified border 
enforcement agency for the United States and gaining 
efficiencies whenever possible. It is a good fit and it makes 
sense.
    CBP's Office of Training and Development already manages 
most of CBP's training, including basic and advanced training 
for CBP officers at the port of entry and border patrol agents 
and between the ports.
    The merging of the canine training program will not only 
contribute to the efficiency of the training program, but it 
will ultimately contribute to the operational efficiency and 
the training nomenclature, training processes and certification 
process will be unified, as appropriate.
    Migration of the CBP canine training program toward common 
language in training processes will enhance the ability of the 
Office of Border Patrol or Office of Field Operations' canine 
teams to jointly respond to major threats or initiatives.
    CBP has invested a lot of time and effort in examining how 
best to manage its two legacy canine team programs. Over a 
period of several months, subject matter experts from the 
Office of Field Operations and the Office of Border Patrol, as 
well as other senior staff from throughout CBP, examined all 
aspects of CBP's canine programs and identified a number of 
best practices from across our agency.
    Under CBP's new model, operators retain control of canine 
field operations and training assets are consolidated under a 
single canine team training program.
    As a result, CBP's capacity to train canine teams will 
increase, and canine team training will be improved by 
promulgating state of the art training techniques and the best 
practices that evolved in both historically separate training 
programs.
    Currently CBP has approximately 1,187 canine teams deployed 
around the country. Our canine teams consist of about 50 
percent human detection narcotic teams, approximately 40 
percent narcotic detector dog teams, and the remaining teams 
are of other disciplines.
    CBP estimates that its new consolidated training program 
will train 246 teams in fiscal year 2006, expandable to some 
extent with the addition of resources.
    Although CBP's canine teams came from legacy agencies, all 
the teams receive formal training and certification through 
fully mature, highly respected courses of instruction.
    Canine teams are trained and certified and deployed in one 
or more of the following disciplines: field human detection, 
narcotic detection, explosive detection, detection of U.S. 
currency, cadaver detection, detection of prohibited 
agriculture products, open field tracking and trailing, and the 
detection of chemicals associated with weapons of mass 
destruction.
    All canine enforcement teams are certified prior to field 
deployment and are subject to regular training maintenance 
requirements and undergo performance evaluations to maintain 
certification of their detection capability, with the exception 
of CBP's explosive dogs that undergo a semiannual 
certification.
    CBP maintains accurate records on the performance of each 
team, and CBP canine teams answer to the same rules, 
regulations and supervisory chain of command as the rest of the 
operational workforce.
    Each supervisor exercising control over canine enforcement 
teams is required to observe detector dog performance and 
proficiency training during employment. Supervisors responsible 
for canine enforcement teams ensure that each officer conducts 
mandatory proficiency training.
    CBP has also developed a training course designed for CBP's 
first and second line supervisors on all aspects of the proper 
use and deployment of canine teams. Canine teams assigned to 
airports and seaports examine vessels, baggage, cargo, mail and 
passengers. Teams stationed and land border crossings devote 
their time to examining vehicles and merchandise entering the 
United States.
    Canine teams can be utilized to search for a trained odor 
in almost any area imaginable. During every work day, canine 
teams conduct training exercises to enhance the dogs' 
performance in the work environment.
    Canine teams are a wonderful tool able to detect potential 
terrorists or concealed contraband hidden from view, using only 
the most basic tools of common sense at one end of the leash 
and amazing sense of smell at the other end.
    It is important to note that our canine teams have a 
special niche in our border enforcement strategy and is so far 
unchallenged by any competing technology. No machine can match 
the speed, accuracy and flexibility of a canine team searching 
for hidden narcotic, humans, currency, explosives or pests in 
the hectic environment that exists in airports, seaports, land 
ports or border patrol checkpoints.
    For example, at border ports, the canine team can examine a 
vehicle in five to 6 minutes. Even a cursory search by a CBP 
officer without a canine would require at least 20 minutes. 
Canines can check packages in a fraction of the time needed by 
mail examiners. A canine team can process 400 or 500 packages 
in approximately 20 minutes to 30 minutes.
    For all their strengths, canine teams also have their 
limitations. Canine teams are also partnerships bonding one 
human and one animal. The strength of that partnership makes 
them effective, but canines and humans are live creatures and 
not interchangeable machine parts.
    That is, handlers and canines are not instantly 
interchangeable with other handlers and other canines. No part 
of CBP works harder or achieves more spectacular results than 
our enthusiastic, energetic effective canine teams. As canine 
handlers would tell you, this is not a job, it is a passion.
    Any factor that can effect a human or a canine, including 
heat, cold, fatigue, illness or age, can affect canine team 
performance. CBP's canine program is well known in the 
community as the benchmark by which other canine programs are 
measured.
    During fiscal year 2004, Customs and Border Protection 
signed a memorandum agreement with the United States Coast 
Guard. Under this MOA, CBP has already trained explosive dogs 
for the U.S. Coast Guard, and CBP stands ready to train all 
future Coast Guard narcotic and explosive detector dog teams.
    Throughout 2005, CBP's canine enforcement program will 
continue to work with other federal law enforcement and 
intelligence agencies to develop training strategies and 
protocols based on real-world threats and intelligence trends.
    Most notable were CBP's sustained cooperative efforts with 
the Federal Bureau of Investigation, the Transportation 
Security Administration and the United States Coast Guard.
    CBP recognized canine teams serve in an important role in 
CBP's enforcement operations. CBP is continuously evaluating 
the efficiency of all its tools and making informed choices 
about the right mix of personnel, technology, equipment and 
infrastructure.
    Based on CBP's recent review of canine operations and 
canine team training, it is certain that canine teams will 
continue to play an important role in CBP for the foreseeable 
future.
    Thank you again for this opportunity to testify. I will be 
happy to answer any of your questions.
    [The statement of Mr. Titus follows:]

                    Prepared Statement of Lee Titus

    Good Morning, Chairman Rogers, Ranking Member Meek, Members of the 
Subcommittee, it is a privilege to appear before you today to discuss 
the training of canine teams within U.S. Customs and Border Protection 
(CBP).
    I want to begin by expressing my gratitude to the Committee for 
holding this hearing on canine teams, helping us to bring attention to 
the accomplishments of this important program and the issues facing the 
program, to the forefront.
    CBP's canine law enforcement program--one of several such 
Department of Homeland Security canine programs that both protects life 
and property and contributes to the Department's law enforcement and 
anti-terrorism missions--is the largest federal canine law enforcement 
program in the United States. CBP has trained and deployed thousands of 
canine teams in support of our anti-terrorism and traditional missions 
over the years. Working together at and between our Nation's official 
ports of entry, our canine teams are a critical component in CBP's 
layered approach to border protection and our ability to secure our 
border, protect our homeland and defend against the threats posed by 
potential terrorists, explosives, chemical weapons, illegal aliens, 
narcotics, and harmful agricultural pests and products.
    The canine enforcement program is responsible for a significant 
proportion of narcotic seizures made by Customs and Border Protection 
at ports of entry, checkpoints, and between official ports of entry, 
accounting for more than 11,600 narcotic seizures totaling over 
1,804,196 pounds of narcotics in FY 2004. The canine enforcement 
program was also responsible for detecting 40,296 concealed humans and 
the seizures of U.S. currency worth $33 million in FY 2004. During FY 
2004 the canine enforcement program was accountable for over 68,512 
Quarantine Material Interceptions of plant products and over 17,956 
Quarantine Material Interceptions of animal products with a combined 
weight of 6,552 pounds.
    Beginning next month, CBP canine team training will be realigned 
and consolidated under CBP's Office of Training and Development. It is 
important to note that operational control in the field will be 
retained by the Offices of Field Operations and Border Patrol. This 
consolidation of canine training is a major step for CBP toward our 
goal of forging a single, unified border enforcement agency for the 
United States and gaining efficiencies wherever possible. It is a good 
fit, and it makes sense; CBP's Office of Training and Development 
already manages most of CBP's training, including basic and advanced 
training for CBP Officers at the ports of entry and Border Patrol
    Agents in between the ports. The merging of the canine training 
program will not only contribute to the efficiency of the training 
program but will also ultimately contribute to operational efficiency 
in that the training nomenclature and training processes will be 
unified as appropriate. Migration of the CBP Canine Training program 
toward common language and training processes will enhance the ability 
of Office of Border Patrol or Office of Field Operations Canine Teams 
to jointly respond to major threats or initiatives.
    CBP has invested a lot of time and effort in examining how best to 
manage its two legacy canine team programs. Over a period of several 
months, subject matter experts from the Office of Field Operations and 
the Office of Border Patrol as well as other senior staff from 
throughout CBP, examined all aspects of CBP's canine programs and 
identified a number of best practices from across our agency. Under 
CBP's new model, operators retain control of canine field operations, 
and training assets are consolidated under a single canine team 
training program. As a result, CBP's capacity to train canine teams 
will increase, and canine team training will be improved by 
promulgating state-of-the-art training techniques and the best 
practices that evolved in both historically separate training programs.
    Currently, CBP has approximately 1,187 canine teams deployed around 
the country. Our K-9 teams consist of 50% human detection/narcotic 
teams, approximately 40% are narcotic detection teams, and the 
remaining teams are other disciplines. CBP estimates that its new 
consolidated training program will train 246 teams in FY 2006, 
expandable to some extent with the addition of resources.
    Although, CBP's canine teams came from legacy agencies, all of the 
teams receive formal training and certification through fully mature, 
highly respected courses of instruction. Canine teams are trained, 
certified and deployed in one or more detection disciplines: concealed 
human detection, narcotic detection, explosive detection, detection of 
currency, cadaver detection, detection of prohibited agricultural 
products, open field tracking and trailing and the detection of 
chemicals associated with weapons of mass destruction.
    All canine enforcement teams are certified prior to field 
deployment; are subject to regular training maintenance requirements, 
and undergo annual performance evaluations to maintain certification of 
their detection capability. CBP maintains accurate records on the 
performance of each team, and CBP canine teams answer to the same 
rules, regulations and supervisory chain-of-command as the rest of the 
operational workforce.
    Each supervisor exercising control over canine enforcement teams is 
required to observe detector dog performance during employment and 
proficiency training. Supervisors responsible for canine enforcement 
teams ensure that each officer conducts mandatory proficiency training.
    Canine Teams assigned to airports and seaports examine vessels, 
baggage, cargo, mail, and passengers. Teams stationed at land border 
crossings devote their time to examining vehicles and merchandise 
entering the United States. Canine teams can be utilized to search for 
a trained odor in most any area imaginable. During every workday, 
canine teams conduct training exercises to enhance the dog's 
performance in the work environment. Canine teams are a wonderful tool, 
able to detect potential terrorists and concealed contraband hidden 
from view, using only the most basic of tools, common sense at one end 
of the leash and an amazing sense of smell at the other end.
    It is also important to note that our canine teams have a special 
niche in our border enforcement strategy, a niche that so far is 
unchallenged by any competing technology. No machine can match the 
speed, accuracy and flexibility of a canine team searching for hidden 
narcotics, humans, currency, explosives, or pests in the hectic 
environment that exists in airports, seaports, land ports or Border 
Patrol checkpoints. For example, at border ports a canine team can 
examine a vehicle in 5 to 6 minutes. Even a cursory search by a CBP 
Officer without a canine would require at least 20 minutes. Canines can 
check packages in a fraction of the time needed by mail examiners. A 
canine team can process 400 to 500 packages in approximately 30 
minutes.
    For all their strengths, canine teams also have limitations. Canine 
teams are also partnerships bonding one human and one animal. The 
strength of that partnership makes them effective; but canines and 
humans are live creatures and not interchangeable machine parts. That 
is, handlers and canines are not instantly interchangeable with other 
handlers and other canines. No part of CBP works harder or achieves 
more spectacular results than our enthusiastic, energetic, and 
effective canine teams. As canine handlers will tell you, this is not a 
job, it's a passion. Any factor that can affect a human or a canine, 
including heat, cold, fatigue, illness or age can affect canine team 
performance.
    CBP's Canine program is well known in the canine community as the 
benchmark that other canine programs are measured. During FY 2004, 
Customs and Border Protection signed a Memorandum of Agreement (MOA) 
with the United States Coast Guard. Under this MOA, CBP stands ready to 
train all future Coast Guard narcotic and explosive detector dog teams. 
Throughout 2005 the CBP's Canine Enforcement Program continued to work 
with other federal law enforcement and intelligence agencies to develop 
training strategies and protocols based on real-world threats and 
intelligence trends. Most notable were CBP's sustained cooperative 
efforts with the Federal Bureau of Investigations, the Transportation 
and Security Administration, and the United States Coast Guard.
    CBP recognizes canine teams serve an important role in CBP's 
enforcement operations, but CBP is continuously evaluating the efficacy 
of all its tools, and making informed choices about the right mix of 
personnel, technology, equipment, and infrastructure. Based on CBP's 
recent review of canine operations and canine team training, it is 
certain that canine teams will continue to play an important role in 
CBP for the foreseeable future.
    Thank you again for this opportunity to testify. I would be happy 
to answer any of your questions.

    Mr. Rogers. Thank you, Mr. Titus.
    The Chair would once again remind the witnesses that your 
full statement can be submitted for the record. We just ask you 
to give us a synopsis in 5 minutes or less, because we really 
want to get to questions. You know a lot of answers that we 
would like to probe.
    The Chair now recognizes Mr. David Kontny, Director of the 
National Explosives Detection Canine Team Program at the 
Transportation Security Administration of the U.S. Department 
of Homeland Security, for his statement.
    Mr. Kontny?

                   STATEMENT OF DAVID KONTNY

    Mr. Kontny. Good morning, Mr. Chairman, Representative Meek 
and members of the subcommittee. I am pleased to have the 
opportunity today to discuss our efforts relating to the 
National Explosives Detection Canine Team Program.
    Explosive detection canine teams are a proven, reliable and 
cost-effective solution to the detection of explosives. They 
form a vital component in our system of systems to detect and 
deter against terrorist acts upon our nation's transportation 
systems.
    One key advantage of deploying canines is that this is a 
flexible, omnimodal capability. The canine teams could move 
throughout the system and they can also post at multiple points 
during periods that vary from shift and day by day.
    This variability in locations and times for the use of 
canine teams adds an important element of unpredictability to 
enhance security.
    TSA has worked aggressively to expand the explosive 
detection capabilities in the civil aviation environment by 
doubling capacity since the September 11th attacks.
    Currently, TSA deploys 345 detection canine teams at 66 of 
the nation's busiest airports. With our continuing expansion, 
we expect by the end of the year 420 canine teams will be 
authorized at 82 airports around the country.
    TSA is also working to greatly expand the use of explosive 
detection canine teams in the mass transit environment, 
especially in light of the March 2004 attacks in Madrid and the 
July 2005 bombings in London.
    Since 1998, we have partnered with the Metropolitan Atlanta 
Rapid Transit Authority to deploy teams there, and we are 
pleased to announce that we have selected an additional 10 
transit and light rail systems to receive three TSA-certified 
detection canine teams each, for a total of 30 teams.
    TSA is currently in the final stages of signing cooperative 
agreements with these mass transit and light rail systems which 
outline the terms and conditions under which they will 
participate.
    Partnership with stakeholders, especially law enforcement 
and transportation authorities where TSA-certified explosive 
detection canine teams are deployed, is key to the program's 
success. Each canine team is composed of a dog provided by TSA 
and a handler who is actually employed by the local law 
enforcement agency or transportation authority.
    TSA enters into a cooperative agreement with the local law 
enforcement and transportation authorities under which TSA 
provide the dog, associated training of the handler, explosive 
training aids and technical assistance at no cost to the 
participating agency.
    In turn, the local jurisdiction agrees to utilize TSA 
canine teams at least 80 percent of the time in the 
transportation environment and to maintain a minimum of three 
certified teams available for around-the-clock incident 
response.
    TSA also provides monetary reimbursement for the local 
jurisdiction in the amount of $40,000 per canine team per year 
to help defray costs such as provision of proper kennel 
facilities, vehicles to transport the canines, and veterinary 
care for the canines as well as a portion of the handler's 
salary.
    Prior to actual deployment, canines and their handlers 
undergo an extensive training course at the TSA Explosives 
Detection Canine Handler Course located with the Department of 
Defense Military Working Dog School at Lackland Air Force Base 
in San Antonio, Texas.
    During the 10-week-long course, handlers develop handler 
skills, learn about explosives handling, safety and 
transportation requirements and explosives contamination issues 
while operating in their environment and become familiar with 
the administrative requirements of the program, including 
proper use of online applications designed to monitor day-to-
day canine performance.
    Once a team graduates from the initial training course, the 
team is given an initial certification and an assigned airport. 
Each newly deployed canine team must then complete a 14-day 
training mission in the operational environment.
    Training does not stop upon graduation and initial 
certification. The teams undergo several hours of recurrent 
proficiency training each week in their operational 
environment. The results of each training exercise are recorded 
in the TSA canine Web site and are reviewed by TSA headquarters 
staff for compliance.
    TSA also requires that each team go through an extensive 
annual certification process conducted onsite in an operational 
environment. The certification is one of the most rigorous 
operational tests administered and is designed to evaluate the 
team's ability to perform the day-to-day mission of securing 
the nation's transportation system.
    The high standards we have set and the mechanisms which we 
put in place ensure that proper training, certification and 
oversight of the canine teams have enabled the National 
Explosives Detection Canine Team Program to become recognized 
as a leader in the canine community with whom other federal 
agencies, such as the Federal Protective Service, United States 
Coast Guard and Customs and Border Protection and their 
counterparts from abroad, are eager to partner.
    TSA greatly appreciates the funding that Congress has 
provided to support the efforts I have described above in the 
airport and mass terminal environment.
    In addition, Congress also has provided funding this fiscal 
year to support our efforts in the air cargo area, which 
include, among other things, an analysis of an operational test 
and evaluation of TSA-certified canine teams' ability to detect 
explosives in various cargo and mail configurations and the 
installation of a new cargo training lab in San Antonio, Texas.
    For 2006, the president's budget requests $19 million to 
continue support of the program in the airport environment. TSA 
is eager to work with Congress to ensure the explosive 
detection canine programs relating to air cargo and mass 
transit will continue to be adequately supported.
    Mr. Chairman, Congressman Meek and other members of the 
subcommittee, this concludes my prepared remarks, and I would 
be pleased at this time to answer any of your questions.
    [The statement of Mr. Kontny follows:]

                   Prepared Statement of David Kontny

    Good morning Mr. Chairman, Congressman Meek, and Members of the 
Subcommittee. I am pleased to have the opportunity to appear before you 
with my colleagues from U.S. Customs and Border Protection and the 
Bureau of Alcohol, Tobacco, Firearms, and Explosives (ATFE) to discuss 
the use of canines in deterring, detecting, and preventing potential 
terrorist attacks.
    The Transportation Security Administration (TSA) administers the 
National Explosives Detection Canine Team Program (NEDCTP), one of the 
largest explosives detection canine programs in the Federal government, 
second only to the Department of Defense (DOD). The purpose of this 
program is to deter and detect the introduction of explosives devices 
into the transportation system. TSA has worked aggressively to expand 
canine explosives detection capabilities in the civil aviation 
environment by doubling capacity since the September 11 attacks. While 
these efforts will continue, we are also working to expand our 
capabilities in other modes of transportation. TSA recognizes that 
canine teams are one of our most mobile explosives detection tools and 
is working steadfastly to take full advantage of the multi-faceted 
capabilities that canine teams provide.
    Currently TSA has deployed 345 explosives detection canine teams at 
66 of the Nation's busiest airports (Category X and Category I) and one 
mass transit system (Metropolitan Atlanta Rapid Transit Authority 
(MARTA)). Our on-going Phase III expansion within the aviation sector 
will bring this total to 82 airports and 420 canine teams. These teams 
are deployed in support of day-to-day activities within the airport and 
mass transit environment (MARTA) to search aircraft, vehicles, 
terminals, warehouses (cargo), checked baggage, and subway systems.
    Each canine team is composed of one dog provided by TSA and one 
handler employed by the local law enforcement or transportation 
authority that has volunteered and partnered to participate with the 
NEDCTP. Under a Cooperative Agreement executed with each local law 
enforcement or transportation authority with whom TSA has agreed to 
provide certified canines, the local jurisdiction agrees to utilize 
TSA-certified canine teams at least 80% of the time in the 
transportation environment and to maintain a minimum of three TSA-
certified canine teams available around-the-clock for incident 
response. The remaining 20% of the time allows local agencies to use 
these resources to execute other community activities such as response 
to bomb threats, searches for high profile events, and other law 
enforcement activities that would require the use of an explosives 
detection canine team. TSA provides the dog, associated training of the 
handler, explosives training aids, and technical assistance at no cost 
to the participating agency and provides monetary reimbursement to the 
local jurisdiction, in the amount of $40,000 per canine team per year 
to help defray costs such as the provision of proper kennel facilities, 
vehicles to transport canine teams, and veterinary care for the 
canines, as well as a portion of the handlers' salaries.
    The NEDCTP supports an extensive infrastructure in order to 
accomplish required training of explosives detection canine teams and 
to monitor their performance. The program requirements, which include 
an intensive training regimen, periodic evaluation, and annual 
certification, are essential to assuring quality control over the 
program. The high standards that we have set and maintained and the 
mechanisms we have put in place to ensure thorough oversight have 
enabled the NEDCTP to become recognized as a leader in the canine 
community with whom other Federal agencies and our counterparts from 
abroad are eager to partner.
    Handlers and canines undergo initial training at the TSA Explosives 
Detection Canine Handler Course co-located at the DOD Military Working 
Dog School, at Lackland Air Force Base, in San Antonio, TX. Under this 
arrangement, TSA has shared use of U.S. Air Force training facilities 
and the United States Army Veterinarian Medical facilities. TSA 
controls the course curriculum and the certification requirements of 
the teams to meet TSA-certification standards. This results in a 
tremendous cost savings for TSA. The training course and facilities in 
San Antonio are considered to be the ``Center of Excellence'' for 
canine training.
    TSA has adopted a three-prong approach to canine procurement in 
order to ensure an adequate number of canines are available for 
training and subsequent deployment. This three-prong approach includes 
partnering with DOD during canine ``buy trips'', use of U.S. canine 
vendors, and the TSA Puppy Program. The TSA Puppy Program is a direct 
result of our consultation with the Australian government and is 
modeled after the successful Australian Customs Service National 
Breeding Program. The Puppy Program could not be accomplished without 
the support of the San Antonio and Austin Texas communities as each of 
the puppies are placed in a foster home with local community members. I 
would like to publicly acknowledge their outstanding support to this 
program. In addition, as a reminder of the legacy of the victims of the 
9/11 attacks and our continued efforts in the fight against terrorism, 
each puppy is named after a victim of those attacks.
    The initial training of the handler and canine consists of a 10-
week training course, during which handlers develop handler skills; 
learn about explosives handling, safety and transportation 
requirements, and explosives contamination issues within the operating 
environment; and become familiar with administrative requirements of 
the program, including proper use of on-line applications designed to 
monitor day-to-day canine performance. Once a team graduates from the 
initial training course, the team is given an initial certification at 
an assigned airport. Each newly deployed canine team must then complete 
a 14-day training mission in the operating environment before given 
full certification.
    Training does not stop upon graduation and initial certification. 
The teams undergo several hours of recurrent proficiency training each 
week in their operational environment, which includes all the smells 
and distractions associated with a busy transportation system. This 
training is ``objective based'' where the handler/trainer must set a 
training problem up that enhances the team's capabilities or is used to 
correct a minor discrepancy that was noted during an evaluation or 
previous training scenario. The training is conducted utilizing canine 
training aids procured and prepared by TSA, which characterize real 
threats. The results of each training exercise are recorded in the TSA 
Canine Web Site (CWS) and are reviewed by TSA headquarters staff for 
compliance.
    TSA also requires each team to go through an intensive annual 
certification process. These certifications are conducted on site in an 
operational environment within a three-four day period. The 
certification is one of the most rigorous operational tests 
administered and is designed to evaluate the team's ability to perform 
their day-to-day mission of securing the nation's transportation 
system.
    For FY 05, TSA has been appropriated $22 million to administer the 
NEDCTP. Within this amount, $17 million is dedicated to steadily 
increase the number of teams deployed at airports. As indicated 
earlier, we currently have 345 explosives detection canine teams 
deployed at 66 airports and one mass transit system, and we are 
continuing our progress to attain an authorized strength of 420 canine 
teams deployed at 82 airports by the end of this calendar year.
    TSA also recognizes the importance of dedicating explosives 
detection canine teams to provide a timely and mobile response option 
to threats arising in other modes of transportation, especially in 
light of the March, 2004, attacks in Madrid and the July, 2005, 
bombings in London. Within the $22 million appropriated for FY 05, $2 
million is dedicated to supporting expansion of the NEDCTP into 
additional mass transit/light rail systems. Currently TSA is working 
towards providing ten mass transit systems with three TSA-certified 
explosives detection canine teams each, for a total of 30 teams. The 
ten systems have been identified based on a comparative analysis of the 
size of the systems according to passenger ridership, location of the 
nation's critical infrastructure in the transit sector, threats in the 
transit sector, and other security criteria. Additional information on 
this initiative was provided to potential participants at the Mass 
Transit Stakeholders Summit held on August 10, 2005. TSA is in 
continuing discussions with stakeholders to finalize the terms and 
conditions under which the transit agencies would participate in the 
NEDCTP. These agreements would closely mirror those that TSA has 
entered into with airports.
    Explosives detection canine teams bring technical capability, 
mobility, and flexibility to security--attributes essential in 
protecting network systems. The canine teams can move throughout the 
system, and they can also post at multiple points during time periods 
that vary by shift and by day. This variability in locations and times 
for use of canine teams adds an important element of unpredictability 
to enhance security. TSA is working to take full advantage of the 
flexible, omni-modal capability that canine teams afford. We have 
worked with all participants in the NEDCTP to acclimate their teams to 
various transportation systems that they may be asked to support so 
that teams can be rapidly re-deployed to other transportation sectors 
should threat conditions deem such measures appropriate. This has 
enabled TSA-certified explosives detection canine teams to be shifted 
as a Rapid Deployment Force to support security efforts at mass transit 
systems, bus terminals, and general aviation locations during National 
Special Security Events, including the G-8 Summit, both national 
political conventions in 2004, and the Inauguration festivities.
    In addition, the FY 05 appropriations contained $3 million to 
support TSA canine explosives detection activities relating to air 
cargo. In 2004, TSA conducted an Operational Test and Evaluation (OT&E) 
of a TSA-certified canine team's ability to detect explosives in 
various cargo and mail configurations. The OT&E concluded in August, 
2004, and the preliminary results were promising. TSA is further 
analyzing the data from the OT&E and will make recommendations on 
whether explosives detection canine teams should be incorporated, along 
with other systems and technologies, into the screening of cargo and 
mail transported on passenger aircraft. As a result of the OT&Es, the 
NEDCTP has partnered with our Aviation Cargo section to develop a 
comprehensive list of activities to enhance canine detection 
capabilities and deployment options within the cargo environment. One 
of these activities is our new Cargo Training Lab in San Antonio, which 
is designed to replicate a cargo warehouse environment.
    For FY 06, the President's budget includes $19 million, which will 
permit continued support of the NEDCTP in the airport environment. TSA 
greatly appreciates Congress' assistance in funding the NEDCTP, 
particularly those activities relating to mass transit and air cargo. 
As indicated earlier, canine teams will be deployed at 10 transit 
systems in the very near future. TSA will work with Congress to ensure 
that explosives detection canine programs relating to air cargo and 
mass transit will continue to be adequately supported. The TSA Canine 
Support Branch currently has the physical capacity to train 108 new 
canine teams during each calendar year.
    Explosives detection canine teams are a proven, reliable, and cost-
effective solution for the detection of explosives, and they form a key 
component of the Department's threat-based risk management approach to 
homeland security. In close partnership with airport and other 
stakeholder operators, TSA has worked to steadily increase the number 
of teams available to address the threat of explosives being introduced 
into the transportation sector. While this work will continue, special 
emphasis is now being placed to rapidly increase the number of canine 
teams that are deployed to modes other than aviation and to maximize 
the flexible, multi-modal capability that canine teams afford. The 
formation of the Department of Homeland Security Rapid Deployment Force 
for mass transit canine and our recent efforts to co-sponsor regional 
training sessions with the ATFE are examples of Federal agencies 
working together to leverage both training and operational resources. 
The recent completion of the TSA Canine Explosives Storage and 
Characterization Facility and the centralized procurement, packaging 
and delivery of canine training aids are other examples of departmental 
leveraging. In addition, TSA has partnered with the Federal Bureau of 
Investigation and National Institute of Justice to sponsor the 
Scientific Working Group on Dog and Orthogonal Detection Guidelines to 
enhance the performance of detector dog teams.
    Mr. Chairman, Congressman Meek, and other Members of the 
Subcommittee, this concludes my prepared remarks. I would be pleased at 
this time to answer any questions.

    Mr. Rogers. Thank you, Mr. Kontny.
    The Chair now recognizes Special Agent Terry Bohan, Chief 
of the National Canine Training and Operations Support Branch 
at the Bureau of Alcohol, Tobacco, Firearms and Explosives of 
the Department of Homeland Security, for his statement.

                    STATEMENT OF TERRY BOHAN

    Chief Bohan. Thank you, Mr. Chairman, Mr. Meek, and members 
of the subcommittee. I appreciate the opportunity to testify 
before you today on behalf of the men and women of ATF.
    ATF has over 500 canine handler teams deployed with 
federal, state, local and law enforcement agencies. We have 
trained explosives detection canines, or EDCs, for the FBI, the 
U.S. Marshals Service, the IRS, FEMA and 16 foreign countries. 
ATF has placed trained canines in 41 states and the Virgin 
Islands.
    The trademark of ATF's canine program is the exclusive use 
of Labrador Retrievers. ATF acquires the canines from various 
guide dog foundations and trains the animals as EDCs. The 
program also combines ATF's specialized experience in 
explosives investigations with the knowledge of our forensic 
chemists and accredited national laboratory.
    The annual certification that our canines must pass has 
been independently validated by Oak Ridge National 
Laboratories. Our canines also routinely participate in in-
service training and evaluations.
    ATF's canine training facility is located in rural Virginia 
with the U.S. Customs and Border Protection facility. This year 
ATF will train approximately 26 foreign canine teams and 36 
teams for federal, state and local agencies.
    ATF is reimbursed by the State Department's Antiterrorism 
Assistance Program for all costs associated with training 
foreign countries. U.S. agencies receive their canines and 
training at no charge in exchange for assisting ATF when 
needed.
    ATF's EDC program supports multiple missions working 
closely with other federal, state and local agencies to ensure 
national security. ATF is often called upon to deploy a large 
number of canine teams to both national security events and 
other venues.
    ATF canines also support ATF's mission in enforcing 
criminal statutes, combating explosives and firearms violence. 
From January of 2000 to December of 2003, there were nearly 
3,000 bombings in the United States, causing 334 injuries, 51 
deaths and nearly $27 million in damage.
    Since the beginning of fiscal year 2004, ATF canine teams 
have handled over 800 deployments to prevent or investigate 
terrorism or violent crimes, including providing assistance to 
the Iraqi police service and the U.S. military in Iraq.
    Since September 11th, 2001, the need for a national 
standard for EDCs became more important. ATF developed a 
national odor recognition standard in 1996 at the direction of 
Congress. ATF has been working with various organizations to 
more widely implement those standards.
    Following ATF's move to the Department of Justice under the 
Homeland Security Act, then-Attorney General John Ashcroft 
issued a directive regarding explosives jurisdiction which, 
among other things, directed that as soon as practicable all 
Justice Department components that use explosives detection 
canines are to use only canines certified by ATF.
    ATF's national odor recognition testing, or NORT, is a 
critical aspect of fulfilling the attorney general's directive. 
More than 50 percent of all law enforcement canine teams are 
not associated with a federal canine training program or 
certification. In fact, there is no consistent definition of 
what even constitutes an explosives detection canine or 
training.
    Furthermore, the National Bomb Squad Commanders Advisory 
Board has acknowledged the need for testing of EDCs and has 
asked ATF to address this issue. ATF is in a unique position to 
address this public safety issue, and we hope to make the test 
available to all canine teams in the future.
    NORT will develop and nurture collaborative partnerships 
through training with other agencies, all of whom are, in one 
form or another, responsible for protecting the public against 
the threat of violent crime and terrorism.
    Finally, ATF continues to combat terrorism and ensure 
public safety by supporting the efforts of other agencies 
currently that use EDCs that are not trained by ATF. During 
this past year, ATF has provided training to non-ATF trained 
canines by holding seminars and training sessions.
    Additionally, ATF has provided training on peroxide 
explosives for Washington, D.C.-area canines and at this moment 
is conducting the same training in New Jersey for canines of 
the New York City area.
    We continue to work on other training issues such as safe 
handling of explosives and canine deployment techniques to 
improve the human side of the equation and increase public 
safety in the process.
    Thank you, Mr. Chairman and members of the committee. I 
would be happy to answer any questions you have.
    [The statement of Chief Bohan follows:]

                    Prepared Sttement of Terry Bohan

    Thank you, Mr. Chairman, Mr. Meek, and members of the Subcommittee. 
I appreciate the opportunity to testify before you today on behalf of 
the men and women of ATF and ATF's National Canine Training and 
Operations Support Branch.
    By way of background, ATF has been training canines since 1984, 
dating from our relationship with the Connecticut State Police and the 
training of the first accelerant detection canine, ``Nellie.'' Since 
1995, ATF has trained 36 classes of explosives detection canines at our 
National Canine Training Center in Front Royal, Virginia. Currently, we 
have deployed over 500 explosives detection canines worldwide with 
State, local, Federal, and foreign law enforcement agencies. We have 
trained explosives detection canines for the Federal Bureau of 
Investigation, the Internal Revenue Service, the U.S. Marshals Service, 
the Federal Emergency Management Agency, other government agencies, and 
16 foreign countries through the State Department's Anti-Terrorism 
Assistance Program. Training canines for other Federal, State, local 
and foreign law enforcement agencies is a major component of our 
mission, which in turn supports our Strategic Goals of protecting the 
public and reducing violent crime.
    ATF's explosives detection canines training methodology was 
developed and is overseen by ATF's forensic chemists and our nationally 
accredited explosives lab. The testing of the methodology has been 
independently validated by the Department of Energy's Oak Ridge 
National Laboratories. It is estimated that there are more than 19,000 
known explosives compositions worldwide. This number makes it 
impossible to train a canine on all these compositions individually. 
However, the vast majority of explosives are composed of a relatively 
small number of explosive chemicals or ingredients. Because of this, 
ATF trains on five basic families of explosive chemicals, enabling ATF 
explosives detection canines to detect a very wide range of explosives 
formulations. This ensures that the canines can detect explosives 
compounds to which they have never previously been exposed. For 
example, in the case of water gel or emulsion type explosives, whether 
the explosive is Tovex Austin Emulex, or any of several thousand 
commercial blasting or improvised explosive ANFO mixtures of this type, 
the one common ingredient is ammonium nitrate. Rather than concentrate 
just on individual brands, which may contain proprietary formulas, by 
training the canine to detect ammonium nitrate, we can, in effect, 
cover the whole family of products which might contain ammonium 
nitrate. In fact, during the final certification, the canines are 
tested on some explosive materials they have not seen in training. 
Moreover, ATF systematically trains canines on peroxide explosives, 
which have been used in several terrorist attacks.
    To ensure the canine's continued high level of performance, ATF 
hosts a mandatory annual recertification/training seminar for each 
U.S.-based ATF-trained canine team (handler and canine). During this 
recertification, the team's proficiency is tested and the handler's 
extensive training log for the previous year is reviewed. The canine 
teams are also continually evaluated for their operational proficiency 
by ATF during in-service training sessions.
    While other breeds of canines may possess the temperament and 
qualities for explosive detection, ATF only uses the Labrador 
retriever. We have found that they are a hearty, intelligent breed that 
is readily adaptable to changing environments and they possess a gentle 
disposition which allows for multiple teams to work in close proximity 
to each other. This allows for teams to work in crowds and around 
children, for example, which we find to be highly complementary to 
ATF's diverse and worldwide mission.
    ATF obtains its canines from guide dog foundations. Volunteers 
called ``puppy raisers'' keep the canines in their homes from 8 weeks 
to 14 months of age. These families give their time and love to the 
puppies so they can be properly socialized and acclimated to the family 
environment. The families housebreak the canines, expose them to real 
world environments, and ensure that they receive all their 
vaccinations. Occasionally, however, a canine does not meet the 
requirements of a guide dog. Undesirable traits in a guide dog, such as 
curiosity and eagerness, are precisely the qualities that ATF seeks for 
an explosives detection canine. The guide dog organization then 
notifies ATF, and ATF trainers examine the canine to identify its 
potential as an explosives detection canine. The excellent quality of 
canines procured and the training methodology ATF uses have resulted in 
a proven track record of a 7--to 9--year working life of the canine. 
Throughout the canine's working career and beyond in retirement, the 
canine resides in the handler's home as a trusted partner and family 
member.
    The ATF Canine Training Facility and Kennel are located in Front 
Royal, Virginia, on the grounds of the 250-acre U.S. Customs and Border 
Protection Canine Training Facility. The 14,000-square-foot training 
building allows for climate controlled, year-round training. The state-
of-the art kennel can accommodate 100 canines and incorporates the 
latest technology in kennel design. ATF's canine training program 
trains both explosives detection and accelerant detection canines. In 
addition to the basic canine and handler training programs that occur 
throughout the year, this facility is used as the site of annual 
recertification training for all ATF-trained canines operating 
domestically. This facility also provides an appropriate location for 
the continuing development and enhancement of testing, operational and 
tactical protocols for our canine teams.
    This year, ATF will train approximately 26 foreign explosives 
detection canines for the State Department's Anti-Terrorism Assistance 
program and 34 such teams for Federal, State, and local law enforcement 
agencies. The student handler classes are mixed to foster greater 
relationships and collaboration among domestic and foreign law 
enforcement agencies. Domestically, ATF evaluates applicant State and 
local agencies to ensure that they have the need for and the means to 
physically support a canine/handler team when selecting students for 
the program. Federal, State, and local law enforcement trainees attend 
training and receive a canine at no charge to their agency. Foreign law 
enforcement agencies receive canines through a reimbursable agreement 
between ATF and the State Department's Anti-Terrorism Assistance 
program. Critical in this arrangement is the agreement made between ATF 
and the student's agency that the agency receiving the training will 
assist ATF with investigations, when called upon, for a period of 5 
years. In fact, foreign ATF-trained canine/handler teams responded to 
assist with security for the 2002 Salt Lake City and 1996 Atlanta 
Olympic Games, as well as Olympics held in other countries.
    While a number of Federal agencies utilize explosives detection 
canines, each is unique to its own particular missions, such as 
protecting the Nation's airports or enforcing border security. ATF's 
explosives detection canines program supports multiple missions and 
works in an impressive variety of venues: from scouring bomb scenes to 
assisting in search warrant executions; and supporting State and local 
law enforcement with canine teams for major sporting events. ATF is 
also able to deploy large numbers of canines, when requested, to 
National Special Security Events and other major gatherings, such as 
the G-8 Conference, Presidential inaugurations, Super Bowls, and the 
World Series. ATF canines, of course, also support ATF's mission in 
enforcing criminal statutes combating explosives and firearms violence. 
From January 2000 to December 2003, there were nearly 3,000 bombings in 
the United States, with 334 injuries, 51 deaths, and nearly $27 million 
in damage. Many times ATF explosives detection canines or accelerant 
canine detection of evidence in explosives, firearms, or arson 
investigations has contributed to successful prosecutions. These 
canines are stationed throughout the United States in ATF offices, 
local police department and bomb squads, other Federal agencies, and 
foreign government agencies. Since the beginning of FY 2004, ATF canine 
teams have handled over 800 deployments domestically and 
internationally to prevent or investigate terrorism and violent crimes, 
including providing assistance to the Iraqi Police Service and the U.S. 
military in Iraq. ATF explosives detection canines are providing 
support to other U.S. government agencies in Iraq to protect American 
lives and property.
    In supporting the Department of Justice in its goal of combating 
terrorism, ATF canines have played a significant role. While deployed 
on missions, ATF canine teams have recovered improvised explosive 
devices, explosives materials, post-blast evidence, firearms, shell 
casings, and ammunition. ATF canine teams have made recoveries and 
contributed to recent high profile cases such as the Washington, DC, 
area sniper investigations, when an ATF canine team was instrumental in 
finding shell casings.
    With the increased levels of security in the United States since 
September 11, 2001, the country has seen a dramatic increase in the 
number of explosives detection canines being used by law enforcement 
and private companies. A common question is whether there is a need for 
national standards for explosives detection canines. In 1996, Congress 
directed ATF, through the Treasury Secretary, to develop national odor 
recognition standards for explosives detection canines. ATF set interim 
standards in 1997, and has been working with various organizations 
since then to more widely implement the standards. With ATF's move to 
the Department of Justice under the Homeland Security Act, then-
Attorney General John Ashcroft issued a memorandum on August 11, 2004, 
regarding explosives investigation jurisdiction which, among other 
things, directed that as soon as practicable, all Justice Department 
components that use explosives detection canines are to use only ATF-
certified canines. ATF's National Odor Recognition Testing (``NORT'') 
is a critical aspect of fulfilling the Attorney General' directive.
    In response to the growing demand nationwide for explosives 
detection canines, as well as concerns about the quality of canines 
being procured by law enforcement agencies from non-governmental 
sources, ATF is taking steps to provide more assistance to other State, 
local, and Federal law enforcement agencies. This includes providing 
training and knowledge to help law enforcement agencies have proficient 
explosives detection canines and give them the ability to evaluate and 
rectify shortcoming.
    More than 50 percent of all law enforcement canine teams are not 
associated with a recognized Federal canine training program or 
certification. There are numerous private vendors selling explosives 
detection canines that have trained those dogs according to a variety 
of inconsistent standards and under various conditions. In fact, there 
is no consistent definition as to what even constitutes an explosives 
detection canine. Because of this lack of consistency, and for safety 
reasons, the National Bomb Squad Commanders Advisory Board has stated 
that they would like every explosives detection canines working in 
conjunction with a bomb squad in the United States to have passed a 
standard certification. ATF is in a unique position to address this 
public safety issue. The formal implementation of ATF's NORT, backed by 
hard science in the form of chemistry and administered by experienced 
trainers, will greatly enhance public safety as well as help validate 
the capabilities of explosives detection canines being used nationally 
and internationally as antiterrorist tools. Informal testing began 
earlier this year with the use of non-ATF trained explosives detection 
canines in order to assess how they would perform. These initial tests 
were promising, and as a result, additional EDCs were tested. Based on 
these results, ATF offered a successful pilot NORT at our Canine 
Training Center on September 20, 2005, with further testing scheduled 
in the future.
    The NORT will be of tremendous benefit to Federal, State, local, 
tribal, and foreign explosives canine programs that choose to 
participate. The NORT initiative will allow for the continued 
enhancement of explosives investigation expertise within the law 
enforcement community. Additionally, NORT will both develop and nurture 
collaborative partnerships through training with other agencies, all of 
whom are, in one form or another, responsible for protecting the public 
against the threat of violent crime and terrorism. This is truly 
government at its best.
    Finally, ATF continues to combat terrorism and ensure public safety 
by supporting the efforts of other agencies that currently lack ATF-
trained canines but utilize explosives detection canines. During this 
past year ATF has offered and delivered training to non-ATF trained 
canines, by holding seminars and training sessions during meetings of 
the International Association of Bomb Technicians and Investigators 
(including training on dangerous peroxide explosives). In August of 
2005, ATF hosted a training day for Washington, D.C., area canines for 
the purpose of exposing the teams to peroxide explosives. As we speak, 
ATF is delivering peroxide explosives training to canine teams in New 
York City and will conduct the same training next week for the United 
States Capitol Police. We have also scheduled explosives safety 
training in FY 2006 for canine teams to expose them to a wide array of 
live explosives, explosive products, and detonators. We also will cover 
safe handling of explosives, improving the human side of the equation 
and increasing public safety in the process.
    Thank you, Mr. Chairman and members of the Committee. I would be 
happy to answer any questions you have.

    Mr. Rogers. Thank you, Mr. Bohan. And I want to correct an 
error. You are with the Department of Justice, not the 
Department of Homeland Security as I stated in your 
introduction.
    I would like to start off with a few questions. How many 
dogs did you say that you all train in ATF a year?
    Chief Bohan. This year, we will train 26 teams for foreign 
countries and 36 canine teams for state and local agencies.
    Mr. Rogers. So 36 for domestic use.
    Chief Bohan. For domestic use, yes, sir.
    Mr. Rogers. Does that meet the demand? Is there more of a 
demand than that for your canine teams?
    Chief Bohan. Yes, sir.
    Mr. Rogers. Okay. How much more of a demand, just within 
your department?
    Chief Bohan. I know we have a backlog in requests. Our 
schools are full through this next fiscal year and into the 
next.

                             Attachment #1

    Agency note: We have 68 qualified applicants pending from Federal, 
State and local law enforcement agencies, and can accommodate 50 of 
those in Fiscal Year 2006.

    Mr. Rogers. And those are two schools, right? How many 
schools do you have?
    Chief Bohan. Three schools.
    Mr. Rogers. Three schools. And I heard you mention the one 
in Virginia. Where are the other two?
    Chief Bohan. Excuse me, I thought you were talking classes. 
We have one canine training facility.
    Mr. Rogers. Yes. And three classes within that school?
    Chief Bohan. We have scheduled three explosives detection 
courses for this fall.
    Mr. Rogers. Okay. But you only have that one facility.
    Chief Bohan. Yes, sir.
    Mr. Rogers. All right.
    And, Mr. Titus, now, you all have your training program in 
El Paso, is that correct?
    Mr. Titus. Sir, we have two facilities. We do have the 
Canine Enforcement Training Center at Front Royal. That is a 
250-acre facility that we own.
    Mr. Rogers. And that is where yours is, Mr. Bohan?
    Chief Bohan. Yes, sir. We are co-located on Customs and 
Border Protection's canine facility.
    Mr. Rogers. Okay. But you have separate training programs 
in the same facility.
    Chief Bohan. Yes, sir.
    Mr. Rogers. Okay.
    I am sorry, Mr. Titus. You have that one and what else?
    Mr. Titus. Yes, sir. We have the National Canine Facility 
in El Paso, Texas, as well.
    Mr. Rogers. Okay. And I heard you state earlier that you 
have trained 1,189 dogs, or that is how many you have in 
service now?
    Mr. Titus. That is how many we have in service, sir.
    Mr. Rogers. How many have you trained through your two 
facilities?
    Mr. Titus. Between the two facilities, we have probably 
trained a little over 200, 220 this year. And for fiscal year 
2006 we are looking at about 230.
    Mr. Rogers. And that is your capacity each year to turn 
out.
    Mr. Titus. That is what we are training for CBP. We do have 
some additional dogs we are going to be training for state and 
locals, and we are doing some training, I believe next month, 
for the Brazilian federal police. We are training explosive 
dogs for them.
    Mr. Rogers. You have 1,189 dogs now in use. Does that meet 
your demand with just CBP?
    Mr. Titus. That gives us a good edge out there as part of 
our layered enforcement approach for canines out there. We are 
at 73 ports of entry and 69 checkpoints. That is what we have 
today, and that is what we are projecting--we are training 
another 230 for next year.
    Of the 1,100 we also have to project how many of those dogs 
are going to retire the upcoming year and how many dogs we may 
have for medical proficiency problems as well.
    Mr. Rogers. Okay.
    Mr. Kontny, how many dogs do you all have in service?
    Mr. Kontny. Right now, sir, we have 345 teams deployed 
across the country.
    Mr. Rogers. That is just domestically.
    Mr. Kontny. That is domestically, sir, and that includes 
San Juan, and we have some over in Hawaii, as well.
    Mr. Rogers. And how many do you think you need?
    Mr. Kontny. It depends, sir, on what our expansion is. 
Obviously, we are going to add the additional 30 teams to the 
mass transit systems, as well. It is predicated upon where we 
place those allocations and the resources we have available to 
train and deploy the teams.
    Mr. Rogers. Well, you mentioned 30 teams for mass transit. 
Now, I made reference a little while ago of the fact that here 
in D.C. we are going to have a team stationed.
    Mr. Kontny. Yes, sir, and that will augment the teams that 
are already here in place.
    Mr. Rogers. All right. I guess my question is, given this 
new entire or foray into mass transit venues, do you see the 30 
new teams meeting that new demand? It seems an ominous 
challenge to me.
    Mr. Kontny. Sir, that is the initial deployment opportunity 
we had based on the funding that Congress gave us for fiscal 
year 2005.
    Mr. Rogers. Okay. Can you tell me, Mr. Kontny, how you 
determine which agencies will receive your dogs?
    Mr. Kontny. Yes, sir. The mass transit systems are based on 
a threat analysis. We do it on a threat basis. It is a model 
that is similar to ODP. We also look at passenger throughput, 
the amount of stations that are at each one of those locations.
    In the aviation sector, we actually look at the passenger 
throughput, again the threat-based matrix on where those 
airports are located and how many teams would be responsible to 
cover that particular airport.
    Mr. Rogers. Does TSA have any plans to expand their canine 
training capabilities?
    Mr. Kontny. Right now, sir, we have just expanded it. We 
actually went from 64 students a year to 108. And we have 
additional capacity to be able to expand slightly more.
    Mr. Rogers. How quickly can you increase that capacity?
    Mr. Kontny. Again, we would have to work through our 
partners and with the Department of Defense, but we have 
allocated some space and resources to be able to do that in the 
future.
    Mr. Rogers. But you do not know how quickly you could ramp 
up?
    Mr. Kontny. No, sir, not a specific time frame.
    Mr. Rogers. Okay.
    I see my time is about to expire, but I have got a lot more 
questions. But I will at this time yield to my friend and 
colleague, the Ranking Member from Florida, Mr. Meek, for any 
questions he may have.
    Mr. Meek. Mr. Chairman, I am going to pass at this time on 
my questioning so some of the other members can ask their 
questions. If you can come back to me, I would appreciate it.
    Mr. Rogers. I will.
    The Chair now recognizes the Ranking Member of the full 
committee, Mr. Thompson of Mississippi, for any questions he 
may have.
    Mr. Thompson. Well, it looks like we are going to do the--I 
am going to pass until the second panel also.
    Mr. Rogers. Okay.
    The Chair now recognizes the gentlelady from Texas for any 
questions that she may have.
    Ms. Jackson-Lee. Let me thank the distinguished chairman. 
Both of us were on a CODEL that was enormously informative.
    And I want to say to the presenters here I do not think 
there is anyone opposing that. I have an enormous respect for 
the utilization of the canine, the man's and woman's best 
friend, in the service of their country.
    And I ask your indulgence for a moment. I will be here 
throughout the entire hearing and offer my comments on it. But 
let me, Mr. Chairman, offer some further comments that I think 
are appropriate at this time.
    In fact, let me make the nexus of the utilization of these 
animals in homeland security--that is, that in the search and 
rescue of Hurricane Katrina victims and even survivors the 
canine units have been enormously effective. We have seen the 
Coast Guard being out front. We thank them very much.
    But I think that if you would indulge me again, coming now 
from the region of Hurricane Rita and having just been on the 
ground in some of the most hardest-hit areas--I was invited to 
go into those areas--a number of elected officials--and because 
of my service on the Homeland Security Commission--Mr. Chairman 
and the ranking member, I really want to make an official 
request that in spite of the committee that is now looking at 
what happened, I cannot think of a more important 
responsibility for the Homeland Security Committee than to 
immediately get moving on this disaster.
    And I say that for this subcommittee having the key 
responsibility--I might to the ranking member, who has been a 
leader on this issue, and the chairman and ranking member of 
the subcommittee, ranking member of the full committee--
leaders, because we have worked together.
    But let me cry out for those who died, family members who 
still do not have access to corpses, do not know whether the 
individuals are missing or dead. Let me cry out for the people 
that I went to heated buildings, not because it was 100 degrees 
outside, but because they had no generators, they had no 
opportunity to reach anyone to get generators, and they were 
the command station.
    Let me reach out for people who had to commandeer a hotel 
because there was no one to give instructions that this hotel 
should be open so that they could have their emergency center.
    And let me just say, Mr. Chairman and Ranking Member, I 
really am tired of those who are not on the scene to talk about 
who should have evacuated. Everybody that was able to evacuate 
tried to evacuate.
    But what we do not have in our portfolio is to realize that 
there is always going to be someone left behind. That is a new 
experience for us, because I think Homeland Security was 
thinking that if we organize and we get an evacuation plan, we 
are just going to be moving with all pistols going.
    Some ones are left behind. And so what I confronted were 
local officials with no resources and ability to communicate, 
no ability to get satellite phones, no ability to get 
generators, no ability to get food, no ability to get water, no 
ability to get ice.
    FEMA personnel on the ground to be commended, flying from 
all over the country. But if I might give you a keystone cops 
scenario, which is why this management--this committee is so 
vital, why the Homeland Security Committee is so vital--because 
we live with this all the time.
    Let me give you the keystone cops. The FEMA personnel 
saying I am in charge of generators but I have got to get the 
order from the state in order to move the generators, even 
though the county judge is in maybe 150 degree temperature, 
with hospitals not functioning, obviously evacuated, some still 
left behind.
    People gathering around neighborhoods, if you will, 
trolling for food, trolling for water, trolling for ice, and 
they can not move it because there is nobody to give an order.
    Cell phones going dead while we are talking to H-E-B--that 
happens to be a food chain--who is saying I can send you bread 
and water, and those trucks getting lost because all the 
signage is down--so a 30-minute trip may take 1 hour to 2 
hours. I wish the canines could help us lead them in.
    Mr. Chairman, if there is ever a time now for the new 
chairman and yourself and other subcommittees with our ranking 
member to say we are in charge--and when I say that, I do not 
say it arrogantly. What I am suggesting to you--I left behind 
local officials who did their best on the evacuation.
    If my city had been hit, I cannot tell you without 
exaggerating the loss of life. Why? Because we had people that 
were still trying to get out as Hurricane Rita was hitting. We 
had to close freeways and say you cannot go up 59 North anymore 
because it is getting too close.
    Obviously, Hurricane Rita went another direction, but, 
frankly, if she had not, we had people on the road--a staff 
person with two children and a wife that I told to get out--32 
hours--if anybody's from Texas, from Houston to Fort Worth, 32.
    So therefore, we would have had--what you saw on CNN was 
true. And they would have still been there if Hurricane Rita 
and/or Katrina of that magnitude had have come and stayed for a 
while. That is a management question.
    We have a letter that has come to my attention, and I will 
share it with this committee, and I ask unanimous consent to 
submit it into the record, dated September 28th from the 
secretary of Homeland Security, who is preparing to go forward 
with his plan for something called a preparedness directorate 
and limiting FEMA to be a recovery and--let me get the words 
correct.
    Let me keep going. I ask the indulgence of the chair. I 
would just simply like to call out what I am seeing here as to 
what this is going go be--including infrastructure, 
cybersecurity. They are going to be something called a recovery 
unit. And there is something called a preparedness directive.
    Mr. Chairman, this committee should be engaged. Though we 
are not in the business of micromanaging, we have got a crisis 
here. So I simply ask this committee, Mr. Chairman, with all 
due respect, to make the request for us to look closely at what 
is happening.
    I would almost ask the chairman to get a response from 
Director Paulison, and I will say this as I close. I want to 
give him a compliment. Director Paulison was accessible. He was 
new on the job but he suffers from the same issue. Who is in 
charge?
    Maybe the state system is not the best system, because 
while we were asking the state, Mr. Chairman, to open the 
contraflow lanes, they were in a meeting trying to decide 
whether they could open the lanes. And they were in a meeting 
deciding whether the military was appropriate vehicle to come 
in to help them evacuate persons. Who was in charge?
    Who is in charge to get ice and water to a county official 
who is calling for it? Who is in charge to release the 
generators? I am not going to blame FEMA on this issue. They 
were looking for an order. No order came through to them.
    So let me just put this in the record: I am writing to 
reiterate the department's strong conviction that our proposal 
to create a consolidated directorate for preparedness will 
greatly strengthen DHS.
    I think we should be looking at that, because it wants to 
strip FEMA from what I think is an appropriate role for FEMA, 
either a leadership cabinet position or certainly a leadership 
position, where they can command the respect with the skilled 
personnel, Mr. Chairman, professionals who know about emergency 
response, such as Mr. Paulison, who is a firefighter of many, 
many years.
    And I can not imagine that FEMA would simply be a recovery 
entity, throwing all those expert staff persons to the ground. 
And I only say to you that we are still struggling in the 
region with no electricity, schools closed, evacuees still 
evacuated, Katrina victims returning, places like East Texas 
still inoperable.
    Mr. Chairman, I think Homeland Security has got right now 
to convene meetings and begin the assessment that I think we 
can do. And I yield back.
    Mr. Rogers. The gentlelady yields back. And with unanimous 
consent, the memo is put into the record.
    The Chair now recognizes the gentleman from Texas, Mr. 
McCaul, for any questions he may have for the panelists.
    Mr. McCaul. Thank you, Mr. Chairman.
    As a member of the Texas delegation, I would like to echo 
some of the comments made by the gentlelady from Texas. I know 
that at the appropriate time that this committee, our 
committee, will exercise its oversight responsibilities.
    As a former federal prosecutor, I have worked with BATF 
personally, firsthand. I have seen the great benefit that the 
canines and canine units have delivered. And I wanted to 
explore a couple other areas of use, if I can.
    Primarily I know they are used for explosives. There is 
some research out there that canines can now be used to detect 
biological and chemical weapons. As you know, this very capital 
was under a threat after the 9/11 attacks from anthrax and 
ricin.
    Apparently that is a reality now, that canines can be 
trained to detect that. My first question is does BATF have 
any, or Homeland Security have any, intention to explore that 
possibility and use canines for that purpose?
    There is also a new age explosive called TATP that was used 
in Israel, has been used by insurgents in Iraq, and I know that 
detections are difficult for this type of new age explosive. If 
you could comment on that in terms of where are we with using 
canines to detect TATP.
    And then finally, I am on a border state. I know we have 
sensors for radiological items that may come across the border. 
If you could also comment--and this is my last question--on the 
use of canines on the border.
    Chief Bohan. The peroxide explosives which you refer to are 
something ATF has trained continually and certified on since 
2002. Currently we are working to make that training available 
to other agencies.
    As we speak, we are conducting training right now in New 
Jersey and the New York City area. So canines, in fact, are 
successful with finding the peroxide explosives.
    As far as the other substances, I would defer to Mr. Titus 
on that.
    Mr. Titus. Sir, we do have chemical detector dogs in the 
CBP. We have had them for the last couple years. It is a very 
difficult process to teach the dogs. We have developed a lesson 
plan to do that.
    We were very successful when taking the dogs into a 
laboratory environment with the live agent doing a double blind 
test on the dogs and handlers. And therefore, we were able to 
prove that the dogs could detect certain trained odors that we 
expect in a chemical weapon of mass destruction.
    We have just obtained some new machines that we are going 
to be using to take the live agent out into the work field 
environment to expand our research and to make sure that what 
we say they can do in a laboratory environment they can 
actually do in the field environment as well.
    So we do have the chemical dogs out there. We are planning 
more research right now rather than expanding it, to make sure 
we are on the right path.
    And lastly, in regards to TATP, our detector dogs are 
trained to detect triacetone triperoxide. We work very closely 
with the FBI in Quantico. Because it is a highly volatile 
substance, what we do is we go out to Quantico. One of the 
FBI's chemists makes it for us. And then we run it out their 
explosive--because of the sensitivity of the explosive.
    Mr. McCaul. Could you comment on the biological agents, if 
there are canines that are out there that can detect anthrax, 
for instance? Would that would be of use or do you have that 
capability currently?
    Mr. Titus. We have explored that. We know that we are 
comfortable and that we can go down that path if necessary. We 
have not received that direction.
    I would like to point out, though, that as I understand it, 
with the first responder, they would rather know if it is a 
chemical alert or a biological alert. Therefore the term 
chembio is probably not appropriate. We say it would be a 
single-focus detector dog.
    Mr. McCaul. And I have seen the demonstration. I have seen 
the canines detect inactive, inert anthrax, so I know that it 
is out there.
    Lastly, use on the border. Any comments on that?
    Mr. Titus. We have detector dogs all along the southwest 
border, I would venture to say over 350 dogs from Brownsville, 
Texas, all the way up to San Diego. So we do have dogs out 
there.
    What our new focus is this fiscal year and the upcoming 
fiscal years is predominantly--our traditional mission has 
always been narcotic detection, and now we are looking at our 
antiterrorism mission.
    And what we are doing is training our--retraining some of 
our detector dogs to detect not only narcotics but also to be 
able to intercept concealed humans inside of vehicles or in 
these other types of conveyances, like trains or something like 
that, coming across the border.
    Mr. McCaul. Yes.
    Thank you, Mr. Chairman.
    Mr. Rogers. The gentleman yields back.
    The Chair now recognizes the gentleman from New Jersey, Mr. 
Pascrell, for his questions.
    Mr. Pascrell. Thank you, Mr. Chairman. I have a couple of 
short questions, and then I would like to get into a different 
matter that has not been discussed yet.
    My first question is to Special Agent Bohan, and it is 
this: Can the dogs that are trained in your particular program 
detect unscented explosives?
    Chief Bohan. Sir, again, the canine can detect what odors 
are available. If, in fact, there is an explosive that has a 
signature, the canines will detect it. Unscented explosives--
personally, I am not familiar with that.
    Mr. Pascrell. Mr. Kontny, Director Kontny, to what extent 
could dogs be used to close any security gaps as it relates to 
the screening of air cargo?
    Mr. Kontny. Sir, we have done some testing on that, 
operational test and evaluation was conducted, to look at the 
different configurations of cargo that we can use. Obviously, 
we want to take a systematic approach on that, because there 
are certain types of cargo or certain ways that cargo is 
presented where the dog would be beneficial, and there are 
other ways that the cargo would come through, configurations, 
commodities, that technology would be more efficient.
    So I think as a result of our operational tests and 
evaluations, we are looking at which commodities the dogs are 
doing best and how we can actively deploy them in the cargo 
facilities.
    Mr. Pascrell. As you know, there has been great discussions 
here--I do not know how great they are, but there have been 
many discussions about air cargo and what our responsibilities 
will be. And I am sure we will get around to that sooner or 
later.
    Mr. Titus, you are training dogs to be chemical detector 
dogs, you have explosive detector dogs, you have currency 
detector dogs. You have concealed human, narcotic detector 
dogs, and you have agriculture detector dogs.
    I would like you to tell me if those agricultural detector 
dogs which are trying to find vegetables and foods that are 
coming into this country that have been spoiled or have 
chemicals on them that we do not want to come into this 
country--I want you to just very briefly describe what is 
happening along those lines.
    And then the second part of my question is are these dogs 
being used to scent the trucks that are coming into this 
country, 95 percent of which over the Mexican border are not 
inspected even? I mean, I do not know what the heck are in 
those trucks. You do not know it either, do you?
    Mr. Titus. Sir, just so that I clarify your question, are 
you referring to knowledge about the agriculture dogs as a 
whole, and also the trucks that come across the border in 
regards to agriculture or other contraband?
    Mr. Pascrell. First agriculture, and then other contraband, 
yes.
    Mr. Titus. Okay, sir. We do have agriculture detector dogs, 
and these dogs are trained on five basic odors. That is, 
apples, mangoes, citrus, beef and pork.
    Mr. Pascrell. Right.
    Mr. Titus. And what these dogs are looking for--we do have 
our dogs working in the airport and seaport environment, and 
they are looking primarily at people bringing these prohibited 
items coming across our border.
    It is not just because there may be some chemical sprayed 
on the fruit, but we are looking primarily at, for example, in 
Florida, if you should have a mango come in Miami International 
Airport, which has happened before, and these are infected with 
certain pests, that could actually come into the country and 
then infect the crop down in South Florida and wipe out the--
    Mr. Pascrell. So your dogs are not used primarily for the 
trucks that are coming across the border.
    Mr. Titus. We are expanding the program this year. We are 
looking at putting more agriculture detector dogs on the 
southwest border, yes, sir.
    Mr. Pascrell. How many more trucks are going to be 
inspected now than before, then?
    Mr. Titus. I do not have that information, sir.
    Mr. Pascrell. The American people, Mr. Chairman, have a 
right to know these questions. And we have asked those 
questions for 3.5 years. We do not have an answer for those 
questions.
    Thank you for your answers, and thank you for your service.
    I want to add something to what the gentlelady from Texas 
talked about. Now, we are going to be taking a vote in a few 
moments on the floor, as you well know, and we are going to be 
taking that vote on whether or not we support the secretary of 
Homeland Security from my state, Mr. Chertoff, or whether we 
are going to support the further minimization of FEMA.
    And we, the Homeland Security Committee, this 
subcommittee--we have not discussed that, to my knowledge. Or 
did I miss something? Did I miss anything? So let me say this 
in conclusion, because, you know, you do not want to hear me in 
a 4th of July speech.
    We have had enough Hail Mary passes in the last 3 weeks, 
and it is leaning to the debilitation, the further 
debilitation, of FEMA. We can not accept this. I am going to 
vote for the amendment from Mr. Sabo, the gentleman from 
Minnesota.
    But apparently this is going to be--this is going to come 
down to a partisan vote. I thought that we had an obligation 
and responsibility to the American people to get beyond 
politics and work together.
    And if Mr. Chertoff is throwing down the gauntlet today, 
then he better understand what is at stake, unless we are going 
to be complicit in this, Mr. Chairman. Now, I want this to be a 
non-partisan thing, and I believe you do, too. And our ranking 
member, I know, is committed to that.
    We had no discussions on this. That is a disgrace. And then 
you wonder why we asked for an independent review. These phony 
hearings are a rash of scapegoats. You know, the Greeks have a 
great saying. When the fish stinks, cut the head off.
    We have serious problems here, and we are fooling the 
American people. We are trying to fool them. The only thing is 
they are a lot smarter than we are. We really are, Mr. 
Chairman--very disappointed at this move. Every action I have 
ever taken on this committee is bipartisan. Look at the record.
    And I am not going to accept this from Chertoff, Tertoff, I 
do not care, any of them. This is wrong. It is immoral. And we 
are not going to accept it. So you better tell your leadership 
what is going to happen. I am serious.
    Thank you.
    Mr. Rogers. The gentleman yields back. I thank him for his 
questions and statements.
    I would like to kind of wrap up this panel by revisiting 
what I think--I am sorry. The gentleman from Florida does have 
some questions.
    Mr. Meek. Now, I wanted the other members to have an 
opportunity to ask their questions, and I know that we are 
about to go into a vote, and I know we are going to segue into 
the second panel after the vote.
    First of all, so I do not--I have a serious question as it 
relates to coordination to the response of a natural disaster, 
as it relates to the canine issue. I know that a couple of my 
colleagues have brought up issues as it relates to oversight 
responsibility of this committee.
    This actual panel, Mr. Chairman, if I am correct, has been 
postponed immediately after the Katrina incident due to the 
fact that we all needed the kind of response and get our head 
together on what we should do.
    This is what we call regular order, where we are doing the 
things that we need to do. Meanwhile, we have a natural 
disaster to respond to, but we also have the responsibility of 
making sure that we still conduct oversight functions of the 
overall department.
    I would also like to state that there are a lot of 
sideshows that are going on. We are a 365-day-a-year 
subcommittee that is supposed to be looking into oversight of 
the department and making sure the American people are 
protected.
    This is a serious battle, Mr. Chairman. You know and other 
members on this committee know on a bipartisan end, being a 
member of both Armed Services and Homeland Security, which 
should be always a non-partisan effort in protecting the 
American people.
    Unfortunately, there are some other things that are going 
on now that is making it more partisan, and that means that it 
is making us more vulnerable. I want to get back to the 
question. I just wanted to make that statement.
    The question as it relates to your assets--all of you have 
assets out there through the United States, and in the event 
like a Katrina or an event of a terrorist attack, some of you 
have canine officers or, I mean, dogs working on the borders, 
some of you--customs, border protection, you have--and 
transportation security, you have canine and handlers working 
in international airports.
    Something happens, we know that the local law enforcement 
agencies have partnered with the federal agencies, but they 
are, quote, unquote, your assets, am I correct, or am I 
incorrect?
    You can give me a yes or no on that.
    Mr. Kontny. Correct. Sir, all the assets, the canine 
assets, within the TSA program--the dogs are actually 
government-furnished equipment. They belong to the Government. 
But all the handlers are actually law enforcement officers 
assigned to that particular airport or that particular 
community.
    Mr. Meek. Okay. This leads me into my question. Terrorist 
attack, natural disaster, first thought of local law 
enforcement, we want to help our brother or our sister agency, 
we are going to send our canines, they are needed, the 
explosive detectors in an issue of a threat of terrorist attack 
in a geographical area.
    Is there a plan or has there been some discussion of making 
sure that we do not leave ourselves vulnerable in another area 
because we do not have enough canines to cover the assets that 
we know that is either the number one or number two?
    I am asking this question because in the case of the 
natural disaster in New Orleans, we all knew through top-off 
programs and exercises that New Orleans could be flooded, and 
that it was not a serious priority in other parts of the 
agency.
    I just want to make sure in this area that either there has 
been some thought or there is some level of coordination, and 
we do not have to necessarily wait on someone to say well, you 
really need to call them and tell them they may not want to 
send half of their team because we need to be able to make sure 
that we cover the Boston Airport, for instance.
    Mr. Kontny. If I may, sir--and lessons learned from Katrina 
and Rita--because we knew there was a heavy volume of traffic 
that was going to go through Houston, we actually took in a 
coordinated effort, at the request of the assistant secretary--
we actually moved assets, protection assets, from Dallas-Fort 
Worth Airport into Houston to be able to move the passengers 
through and be able to add that presence there--lessons 
learned, again, from Katrina.
    Also, as far as the mass transit, after we saw Madrid and 
after we saw the attacks in London, the Department of Homeland 
Security put together what is Phase One of our mass transit 
system, which is a rapid deployment force using defense 
resources. Again, that was Phase One, where we can look and see 
what resources are available that are already there, and can we 
augment those resources to be able to negate whatever that 
threat is.
    Mr. Meek. So what happens--let us say, for instance, in my 
case, we have one of the best search and rescue teams with our 
fire department there at Miami Dade County. They usually work 
together with the Miami Dade Police Department, which--you have 
assets down there.
    Let us say, for instance, there is a team--I am just 
pulling a number out of the air--of 20 dogs and 20 handler. The 
director of the public safety department is saying we are 
sending 12 of our canines there, even though half of that team 
is ours, and also I would assume that we paid for some of the 
handlers' training.
    But we know that MIA is on the list of airports, the 
largest international--it has the most international-
international traffic, and a lot of the 9/11 hijackers came 
from the South Florida area.
    Is there some sort of calling you or your agency and saying 
we would like to do this? But as it relates to overall in 
securing America, we want to send teams: we want to send 12. Is 
that fine with you, or are these decisions just made on the 
local level that are not necessarily looking at the bigger 
picture of our mission?
    Mr. Kontny. Speaking only, sir, for the Transportation 
Security Administration, under our cooperative agreement with 
our partners, the local law enforcement agencies, it is a 
cooperative effort. They can not arbitrarily deploy those 
resource without coordinating with our office and vice versa.
    We are not going to actually take their resources without 
coordinating with the airport director.
    Mr. Meek. That is the answer I needed.
    Mr. Chairman, with that, I know that we have a vote.
    I look forward to working with you in the future.
    Mr. Rogers. The gentleman yields back. I would like to 
close with a couple of questions.
    It has been my sense leading into this hearing and in 
hearing each of you talk that we have a much greater demand for 
canine assets than we have canine assets to meet that demand.
    Would each of you give me a yes or no whether you agree 
with that statement, starting with you, Mr. Bohan?
    Chief Bohan. Yes, I agree with that.
    Mr. Rogers. Mr. Kontny?
    Mr. Kontny. Yes, sir, but a caveat would include quality 
and highly trained canines.
    Mr. Rogers. I agree with that.
    Mr. Titus?
    Mr. Titus. Sir, would you ask your question again, please?
    Mr. Rogers. We have a much greater demand for canine assets 
than we have canine assets to meet that demand. That has been 
my observation. And I am particularly interested in your 
response to that after my visit to the border in New Mexico, 
Texas, and Arizona.
    Mr. Titus. Well, sir, I am a canine trainer, and I do not 
look at the operational side of the house. But certainly, we 
can get an answer back to you on what our direction's going to 
be on that.
    Mr. Rogers. Well, your counterparts on the border tell me 
they need a lot more dogs, so that might be a good group to 
talk with.
    Next, I would like to ask--and this will be my final set of 
questions--where do you get your dogs, and how much do you pay 
for them to obtain them, and how much do you pay to train them?
    Mr. Bohan?
    Chief Bohan. We get our dogs from various guide dog 
foundations and vendors.
    Mr. Rogers. Domestically or foreign?
    Chief Bohan. We get our dogs domestically. We only use 
Labrador Retrievers.
    Mr. Rogers. How much do you pay for them?
    Chief Bohan. I believe somewhere around $2,000 for--

                             Attachment #2

    Agency note: ATF pays approximately $2,150 per canine. We estimate 
the training cost per canine to be roughly $60,000, not including 
salaries.

    Mr. Rogers. How much does it cost to train them?
    Chief Bohan. I would not have that figure right in front of 
me. I can get back to you, on the record, with that.
    Mr. Rogers. If you would, I would appreciate that.
    Mr. Kontny?
    Mr. Kontny. Yes, sir. We take a three-prong approach into 
our procurement of canines. One, partnering with the Department 
of Defense to obtain assets through their services; local 
vendors throughout the United States; and our breeding program 
or what we call our puppy program down at Lackland Air Force 
Base, which is part of a global colony. As a matter of fact, 
the Customs and Border Protection has some. Auburn University 
has them as well.
    So by taking that approach, if one of those prongs suffers 
because of access, we are able to facilitate further 
development to meet our needs.
    Mr. Rogers. So how much do you pay for your dogs?
    Mr. Kontny. Well, it averages, sir, again, probably between 
$2,500 and $3,000 per dog, and then we are looking at the costs 
associated with the breeding program, as well, as that matures.
    Mr. Rogers. Right. And how much is the training of that 
dog?
    Mr. Kontny. I will have to get back to you with the 
specific figures on that, sir, because our training process 
is--we actually pay for the handler, the local law enforcement 
officer, that goes down there. So if we could look and dissect 
the question on how much the training costs are and how much--
    Mr. Rogers. If you could get that for us for the record, I 
would appreciate it.
    Mr. Kontny. Yes, sir.
    Mr. Rogers. And the dogs that you receive, are any of them 
obtained from foreign sources?
    Mr. Kontny. In some cases, sir, when we partner with the 
Department of Defense, yes.
    Mr. Rogers. Okay.
    Mr. Titus, where do you obtain yours?
    Mr. Titus. Historically, sir, we have been getting our dogs 
from animal shelters, SPCAs and the like. What has happened 
since 9/11 is--and plus, the fact in the past we have trained 
so many other law enforcement agencies, and they have picked up 
on the same way that we train our dogs.
    There are a great many officers out there looking at those 
traditional sources for detector dogs or potential detector 
dogs, and therefore what is happening is that there is a very 
high supply and demand need. So we are actually buying more 
dogs today than we ever have before.
    We get our dogs from domestic and foreign sources. We have 
some vendors that we work with. We pay approximately $4,500 for 
an untrained dog. We do not have the tuition costs for our 
officers because it is officers training officers.
    However, we do have a per diem cost of about $10,000 to 
$11,000 per officer for their per diem while they stay in Front 
Royal or in the national canine facility.
    Mr. Rogers. I would ask you to do the same thing the other 
two witnesses have offered to do, and that is, for the record, 
submit to this committee the percentage of dogs that you get 
from foreign sources as opposed to domestic sources, what their 
costs are to buy them, and then what the costs are to train 
them.
    I thank all of you. You have been very helpful to us. This 
is a very important subject for our nation, I think, going 
forward, particularly with the challenges that we have in our 
mass transit systems, as well as other challenges. These assets 
are going to be very important in our national security.
    Thank you for your time.
    At this time, I am going to dismiss this panel. We have 
been called for a vote. We will be back at about 1 o'clock and 
convene the second panel.
    Thank you very much.
    [Recess.]
    Mr. Rogers. The Chair will now call up the second panel.
    And I would like to recognize Chief Gene Wilson, Chief of 
Police for the Metropolitan Atlanta Rapid Transit Authority, 
for his statement.

                   STATEMENT OF RALPH WILSON

    Chief Wilson. Mr. Chairman, members of the committee, thank 
you for the invitation. The Metropolitan Atlanta Rapid Transit 
Authority Police Department is the law enforcement agency 
primarily responsible for protecting the system, its customers, 
employees and physical assets.
    We have police jurisdictions in the two counties that 
Atlanta is located in, Fulton and DeKalb. We interact with 23 
different police jurisdictions. We carry 500,000 people a day, 
have a force of 296 people and 43 civilians.
    Both the U.S. and the Georgia Department of Homeland 
Security have identified MARTA as a critical infrastructure. 
Historically, transit systems throughout the world have been 
targets of terrorist attacks.
    The recent attacks against transit systems in Madrid and 
London illustrate the successful tactics of targeting a public 
transit facility with many potential casualties and the 
subsequent political and economic consequences.
    The MARTA Police Department, in an attempt to deter 
terrorist acts, has developed specialized response units, a 
system of threat assessment, and a system of public education 
and notification of potential threats. The specialized response 
teams include the bomb squad, the special operations response 
team, and the canine explosives unit detection team.
    MARTA is a typical U.S. transit system, in that free 
movement into and out of the system is by design, for the 
convenience of our customers. Unfortunately, the design 
handicaps the securing of the facility during times of 
heightened alert. Unlike airports, each transit station can be 
accessed by the public through multiple entrances.
    Rather than restrict the entry method, transit systems 
depend upon our security measures to deter a terrorist attack. 
The explosive detection canine program is a vital tool in this 
deterrence. Dogs are highly visible, flexible in their 
position, and cost effective.
    It is expected that a terrorist attack would be preceded by 
reconnaissance of a potential target by members of a terrorist 
group. If you look at the video that has come out of the London 
bombing, you see the three suspects days earlier wandering 
through the system.
    We tell the public, we tell our officers, we tell our 
employees, look for something suspicious. You look at those 
videos, there is nothing suspicious. They look like anybody 
else in the transit system going from Point A to Point B.
    Visible security measures are intended to convince the 
potential attacker that the likelihood of a successful attack 
is minimal. The unpredictable and high-visibility presence of 
dog teams is an important component of that strategy.
    The cost of a single canine team, while significant, is 
still cost effective. Detection machines, as currently 
available, must be placed either at strategic stations and 
entry points, or at all stations and all entry points. The cost 
of installing detection equipment at every entry point in a 
system is cost prohibitive.
    Unlike technology detection equipment, canine teams can 
change locations randomly, as threats develop, or during 
special events with large crowds.
    Visibility, flexibility, and cost effectiveness are some of 
the reasons for the deployment of canine teams in the MARTA 
system. Reliability of these teams' ability to detect 
explosives is another.
    During the 1996 Olympics, of course, the venue of the 
Centennial Park was bombed. After that, even though we had 
numerous bomb detection teams in the Atlanta area, if every 
backpack, every briefcase that was left turned into the 
potential to be a bomb, and these teams were stretched beyond 
their capabilities--we found that what happened to us in the 
transit system is that we literally almost had to close the 
system down waiting for these resources to be allocated back to 
transit.
    What we did after the Olympics--we developed our own bomb 
team and our own bomb detection dogs capabilities. That is how 
in 1998 we started working with the--it was then the FAA, now 
it is the TSA.
    The Madrid bombings raised additional concerns about the 
vulnerability of transit systems to suicide bombers and man-
transported explosives. It was felt that this tactic, having 
been proven successful, would probably be used in the future.
    We started doing research in-house and realized that our 
bomb detection dogs would detect a stationary object. If a 
person was standing still or if they had placed a briefcase 
down, our dogs would react. But if you move it, if you walk by 
it--if you noticed the demonstration earlier, when the--I 
believe it was customs had the dog check the lady.
    The lady stood still. If she had walked by the dog, the dog 
would not have--he would not have reacted, because they have 
been trained not to be interfered with by people's movements.
    So we realized that if we were going to try to be proactive 
on a suicide bomber, we had to do something more than the TSA 
dogs. And that is how we became involved with the Auburn 
program. We have now got a total of eight dogs, two Auburn, six 
TSA.
    We have now got people both in the--we have got two people 
scheduled for the Auburn school. One will go in 2006. And then 
we have got another one scheduled for the TSA school.
    We feel that this partnership between the two types of 
dogs, the TSA and the Auburn dogs, along with good training, 
gives us what we feel to be a potent--or at least potentially 
to be a potent deterrence against any sort of terrorism.
    I notice that my time is up, so I will conclude my 
statement. If you have any questions, I will be glad to answer 
them.
    [The statement of Mr. Wilson follows:]

             Prepared Statement of Ralph Eugene Wilson, Jr.

    The Metropolitan Atlanta Rapid Transit Authority (MARTA) Police 
Department is the law enforcement agency responsible for protection of 
persons and property on transit system properties and in transit 
vehicles. The transit system encompasses approximately twenty-three 
political jurisdictions in two counties. The Police Department is 
authorized 296 sworn and 43 civilian positions.
    The U.S. and Georgia Departments of Homeland Security have 
identified MARTA as a critical infrastructure component. Historically, 
transit systems throughout the world have been targets of terrorist 
attacks. The recent attacks against transit systems in Madrid, Spain 
and London, Great Britain illustrate the successful tactic of targeting 
a public transit facility with many potential casualties and the 
subsequent political and economic consequences.
    The MARTA Police Department, in an attempt to deter terrorist 
attacks, has developed specialized response teams, a system of threat 
assessment, and a system of public education and notification of 
potential threats. Specialized response teams include the Bomb Squad, 
the Special Operations Response Team, and the Canine Explosives 
Detection Unit.
    MARTA is typical of U.S. transit systems, in that free movement 
into and out of the system is by design, for the convenience of 
customers. Unfortunately, this design handicaps the securing of those 
facilities during times of heightened alert. Unlike airports, each 
transit station can be accessed by the public through multiple 
entrances.
    Rather than restricted entry methods, transit systems depend upon 
other security measures to deter terrorist attacks. The explosive 
detection canine program is a vital tool in that deterrence. Canines 
are highly visible, flexible in their positioning, and cost effective.
    The presence of a canine team, one uniformed police officer paired 
with one dog, is highly visible to anyone entering a transit facility. 
The team is mobile, with the ability to move around a large facility or 
to board transit vehicles, increasing their visibility as they move. 
Customers at MARTA often express their appreciation for the presence of 
the teams, indicating that the public is reassured by this security 
measure.
    It is expected that a terrorist attack would be preceded by 
reconnaissance of a potential target by members of the terrorist group. 
Visible security measures are intended to convince the potential 
attacker that the likelihood of a successful attack is minimal. The 
unpredictable and highly visible presence of canine teams is an 
important component of that strategy.
    The cost of a single canine team, while significant, is cost 
effective. Detection machines, as currently available, must be placed 
either at strategic stations and entry points, or at all stations and 
entry points. Machines are not easily moved, and a prepared terrorist 
will know where the machines are on any given day. Their planning would 
include entering the system that does not deploy machines at every 
entry point. The cost of installing detection equipment at every entry 
point in a system is cost prohibitive. Unlike technological detection 
equipment, canine teams can change locations randomly, as threats 
develop, or during special events with large crowds.
    Visibility, flexibility, and cost effectiveness are some of the 
reasons for the deployment of canine teams in the MARTA system. 
Reliability of the teams? ability to detect explosives is another.
    The decision was made immediately after the 1996 Olympics in 
Atlanta, to form the MARTA Police Bomb Squad and Explosive Canine 
Detection Unit. Research of canine programs revealed that reliability 
of a canine team's ability was critical. Vendors of dogs and training 
were plentiful; proven programs were not. It was decided that only two 
programs, the FAA and the ATF, were of sufficient quality and could 
show quantifiable reliability. MARTA chose the FAA program, and over 
the years since, has become a full partner in the FAA/TSA program.
    The Madrid bombings raised additional concerns about the 
vulnerability of transit systems to suicide bombers and man-transported 
explosives. It was felt that this tactic, having been proven 
successful, would probably be used in the future. An investigation into 
the ability of our dogs to detect explosives carried by moving people 
revealed a deficiency in that area.
    The TSA dogs were conditioned to ignore people as a distraction. 
The dogs, although they sometimes showed interest in persons carrying 
explosives, would not ``alert'' to them. They would search persons who 
were presented to them by their handler, as in a stationary group, but 
would ignore a moving crowd.
    A search was made for agencies, training facilities or individuals 
who had the same concerns or who were actively training dogs to search 
moving persons, which we had begun to term ``personnel search dogs.'' 
There was only one positive response to our search; Auburn University 
Canine Research Center.
    The Auburn facility had embarked on a program that met the needs of 
our department. Funds from an Office of Domestic Preparedness grant 
were obtained for the purchase and training of two personnel search 
canines. One of those dogs has been deployed at MARTA for a year, and 
the second team is presently in training at Auburn.
    The MARTA Police Canine Explosive Detection Unit currently consists 
of eight handler/K-9 teams. Two of those teams are from the Auburn 
Canine program. The other six teams are in the TSA program, and they 
are currently the only public transit TSA teams in the country. The TSA 
is in the process of deploying canine teams to the top 10 transit 
systems in the U.S.
    The MARTA Police Department, along with many police departments in 
the Atlanta area, is under severe budget constraints. Subsequently, 
manpower shortages affect the mission of protecting against terrorist 
attack. The intensive training regimen of explosive detection canine 
teams requires that officers assigned to the Unit be taken off regular 
beat assignments. The result is a critical shortage of uniformed patrol 
officers.
    The TSA canine program includes an annual reimbursement to the 
participating department of $40,000 for each team the department 
fields. Although the amount does not cover all expenses associated with 
a team, it does help when requesting replacement officer positions from 
the governing Board. Continuing reimbursement is the most effective 
means to sustain a substantial canine deterrence.
    In late 2004, MARTA and Auburn University hosted representatives 
from the Sussex County Police, Great Britain, Los Angeles Police 
Department, the U.S. Department of Energy, and the U.S. Dept. of 
Homeland Security. The Sussex County and Los Angeles representatives 
were canine unit supervisors and each department was in the process of 
forming a personnel search canine program. The participants exchanged 
training and operational information, and an ongoing network of 
communication has been established. All representatives agreed that the 
personnel search K-9 concept, combined with standard canine explosives 
detection teams, is an effective means of addressing changing trends in 
terrorist tactics.

                 STATEMENT OF MICHAEL MORIARTY

    Mr. Moriarty. Mr. Chairman, Representative Meek, thank you 
very much. Fifteen years ago, Auburn University established the 
Canine and Detection Research Institute. Its mission was and 
still is to carry out research and development in canine 
detection to protect both people as well as critical national 
infrastructure.
    We have conducted more than 15 federally funded multi-
component research projects ranging from a laboratory 
assessment of canine olfaction--how well can they smell--to 
odor detection signature analysis--how do they know how to do 
it.
    To complement the research efforts that we have been 
engaged in, we have established a canine detection training 
center at Fort McClellan, Alabama to transfer the lessons 
learned from the research into the training programs for both 
dogs, handlers, trainers and program managers.
    Fort McClellan provides the ideal location and the 
logistical partners for our canine program and the university 
embellished this and has built a 40-run state-of-the-art kennel 
and breeding facility there.
    Collectively, Auburn University has now about 200 years of 
canine training experience in our staff members, and we have 
invested $5 million to bring the program to where it is. Three 
of our staff, as an example, more than any other entity, were 
chosen to serve on the recently established 55-member 
scientific working group for dogs and orthogonal detectors.
    Historically, canine detection has been practiced more at a 
craft level than a science. The purpose in our focusing on 
teaching handlers some basic behavioral principles and the 
associated technical language is to move the canine detection 
in the direction of a science.
    Handlers who are equipped with a basic understanding of 
behavioral principles and consistent technical knowledge are 
better armed to maintain the performance of their dog and 
meaningfully collaborate with their colleagues and instructors 
to improve the performance of their dogs.
    Our explosive detection course requires 10 weeks. The drug 
detection course requires 6 weeks. Both include extensive 
training in operational environments and they conclude with a 
realistic scenario-based evaluation and videotape certification 
of each team's operational qualifications.
    The varied experiences of our skilled staff and the 
associated research that we conduct allow our program to 
rapidly develop new applications for bringing canines to bear 
on problems of national needs.
    For example, our canine program conducted research and 
developed training procedures in support of the Department of 
Energy in fielding the first-ever operational chemical warfare 
agent detector dog teams.
    Our current efforts in prototyping focus on applications of 
immediate relevance to homeland security and force protection, 
and one of these, as the chief has just mentioned, is person 
screening for explosive material, particularly in a mass 
transit theater.
    Other applications involve remote and relatively autonomous 
detector dog operations. For example, remote screening of 
vehicles with the occupants by the dogs, with the handler being 
hundreds of yards away and in a safe environment provides a 
much safer environment for the handler to operate at particular 
checkpoints.
    We are also developing remote position locating and command 
issuing equipment with which to equip dogs for remote 
autonomous applications including border protection. The dog 
can also serve as a remotely guided platform for other 
sensors--radiological, chemical, biological, cameras, listening 
devices and so forth.
    Our program, having no operational mandate of its own, and 
having an experienced instructional staff and R&D capabilities, 
provides a resources for specialized mission curriculum 
development and novel applications of canines. We are unique, 
and to that end, a sample of our customers includes the Coast 
Guard, MARTA, Federal Protective Service and many others.
    An example of some of our graduates--we have had two Coast 
Guard teams from Seattle using our dogs who have assisted the 
ATF and local law enforcement in recovering bomb-making 
materials on two separate occasions that were not able to be 
located by the agents using physical means.
    Auburn and the TSA are only two satellites of the highly 
successful Australian customs dog breeding program, and we are 
the only non-federal program. That gives us opportunities to 
breed detector dogs at Auburn University.
    Nationally, the attention to enhancing canine detection 
resources and capabilities has been, in my opinion, 
disproportionately low given the immediate potential to support 
homeland security, particularly in relationship to the 
attention and funding allotted to the development of static 
electronic detection devices. We need both, I would argue.
    We have the institutional capacity to ramp up our personnel 
and facilities at McClelland if the external support is 
available.
    In conclusion, despite the significant advances in 
electronic sensors--and there has been significant advances--
the use of dogs is still widely regarded as the most capable 
tool for the interdiction of hazardous materials such as 
explosives.
    Dogs can interrogate articles in large areas with rapidity 
unmatched by any other means of detection. And dogs can detect 
concentrations of an odor as low as one part in 100 trillion. 
Now, aside from the national debt, 100 trillion is a number 
that we typically think of. But put it in terms--that is like 
detecting an ounce if you dilute it in 800 billion gallons. 
Dogs are good.
    A well trained detector dogs handling team is a vital 
weapon for safeguarding the nation against terrorism. But 
again, as I posed, I think canine detection is underutilized 
because of the limited number of top quality training programs, 
a limited supply of high quality dogs, and sparse funding of 
the detection research and development that must underlie the 
this technique.
    Auburn's canine detection program is uniquely capable and 
positioned to provide an asset responsive to these needs. I 
thank you for your attention.
    [The statement of Mr. Moriarty follows:]

             Prepared Statement of Dr. C. Michael Moriarty

    Auburn University's Canine and Detection Research Institute (CDRI) 
mission is to conduct research, development, and training activities to 
enhance canine and other substance detection technologies. These 
activities focus on the detection of hazardous materials to protect 
people and critical national infrastructure. Auburn has provided basic 
research, technological development, and education to the detector dog 
community for the last 15 years.
    Auburn has conducted more than 15 federally funded multi-component 
research projects ranging from behavioral laboratory assessment of 
canine olfactory sensitivity and odor detection signature analysis to a 
year-long applied examination of the effective working duty-cycle of 
detector dogs under different environmental conditions. The performance 
of prototype detection instrumentation has been examined using the 
Institutes behavioral laboratory preparation for studying olfaction, 
which is the only time the performance of such devices has been 
examined in a manner allowing direct comparison to the olfactory 
sensitivity of a dog. Auburn is the U. S. Government's primary source 
of research related to canine detection and information from this 
research established the scientific precedent supporting the use of 
detector dogs for the detection of explosive and other hazardous 
materials. Furthermore, the Institute is a primary source of 
information and problem solving for the detector dog community 
responding to 100 or more e-mail, phone, and mail request for 
information or guidance regarding the use of detector dogs each year.
    Auburn established the Canine Detection Training Center at Ft. 
McClellan, AL to further the technology transfer and training 
components of the Institute's mission. The Center trains dogs, 
handlers, trainers, and program managers in the performance of all 
facets of canine detection work. A unique aspect of the Center is that 
it provides an operational context in which applied research is 
conducted and, in turn, results from that research are incorporated 
into training programs forming a continuous loop of quality and 
capability enhancement. Instruction at the center blends the 
craftsmanship of expert canine training professionals, behavioral and 
veterinary sciences, and the most recent technological advances.
    Auburn and the Transportation Security Administration, Explosive 
Detection Dog program, are the only two U.S. satellites of the highly 
successful Australian Customs Service Detector Dog Breeding Program and 
Auburn is the only non-federal government and academic veterinary 
science satellite of this program. This program selectively breeds dogs 
to be successful at detection work to enhance the quality of detector 
dogs and ensure a resource for such dogs amidst increased demand and 
ever more consolidated sources for working dogs, which is typically 
north-western Europe. Auburn has produced 21 litters of Labrador 
Retriever Puppies from which more than 50 successfully trained detector 
dogs have been paired with law enforcement handlers. This program is 
made possible through the support dozens of volunteers to house, care 
for, and provide these puppies with particular experiences to enhance 
their trainability. Recent collaborations with correctional 
institutions to employ low-risk inmates for raising of puppies make 
this program capable of very rapid expansion should demand warrant. The 
Labrador Retriever breed makes for an excellent detector dog, is 
adaptable to many applications, and is generally perceived as non-
threatening by the public. The center also has established 
relationships with domestic and international vendors of the highest 
quality working dogs to fulfill the mission specific needs of any 
canine detection scenario.
    Auburn's program is the only detector dog and handler training with 
the combination of direct support from a college of veterinary 
medicine, behavioral science--based research and development activity 
and academic instructional design. The Auburn Canine Program is a 
unique, full service, state the art provider of canine detection 
research, development, training, and technology transfer. Program staff 
and resources provide the capabilities, technical expertise, and 
experience to address a myriad of canine detection challenges. Our 
guiding principals are a commitment to scientific understanding, 
quality, and responsiveness to the needs of practitioners.
    Ft. McClellan provides ideal infrastructure, location, and 
logistical partners for the mission of Auburn's Canine Program. Auburn 
has a 99-year lease of several buildings and over 250 acres of land on 
the recently closed Army post. Include are the previous post veterinary 
clinic and a relatively new 24,000 square foot instructional building. 
Additionally, the University has constructed a 40-run kennel/breeding 
complex. McClellan contains several firing ranges, a driving course, 
airstrip, warehouses, multi-use buildings, and extensive personnel 
housing capacity typical of a large military training facility. Ample 
infrastructure is available to ramp-up to any conceivable level of 
training operations. Located between Atlanta and Birmingham and within 
15 minutes of Interstate 20, McClellan is readily accessible. A 
collaborative atmosphere exists among the AU Canine Program, the ODP--
Center for Domestic Preparedness and the FEMA--Noble Training Hospital 
in executing their respective Homeland Security Support missions making 
McClellan an ideal integrated hub for homeland defense/emergency 
preparedness training and technology development.
    Paul Waggoner is the overall director of the Auburn Canine Research 
and Training Programs. Paul has a doctoral degree in behavioral science 
and 15-years of experience in conducting research and development 
related to canine olfaction, detector dog training, handler 
instruction, and operational deployment of detector dogs. Thomas (Ed) 
Hawkinson is director of Training Activities. Ed's experience includes 
managing the U.S. Secret Service Canine Program, Military Working Dog 
Program Operations Branch Chief and Senior Canine Instructor, and tours 
of duty as a Military Police Canine Handler and Kennel Master in Korea 
and Vietnam. John Pearce is the deputy director of training activities. 
John's previous position was with the Military Working Dog Training 
Center assigned as branch chief for the TSA Canine Training Program. 
These two individuals have a myriad of experiences in training dogs, 
handlers, trainers, and supervisors as well as in employing canine 
detection for both military and law enforcement applications. Hawkinson 
and Pearce have recruited an eclectic ensemble of canine training / 
handler instructional staff with varied law enforcement, federal 
agency, and private investigation backgrounds. For example, staff 
member Jeanne Brock holds two masters degrees, is a certified 
veterinary technician, was proprietor of a canine training and canine 
arson / cadaver private investigation firm and is currently the 
President of the Canine Arson Detection Association. Auburn has over 
200 person-years of experience in canine detection.
    Auburn has attracted instructors that are leaders in the field of 
canine detection who share the vision of applying behavioral science 
and canine training craftsmanship to enhance the practice of canine 
detection. Auburn's canine training methods are based on the well-
established principles of animal learning from academic behavioral 
science. Handlers are required to demonstrate mastery of over 80-hours 
of classroom instruction in our standard explosive and drug detection 
courses. The classroom instruction is comprehensive providing handlers 
with information ranging from health and sanitation of kennels to 
operational tactics; however, instruction in basic behavioral 
principles and the use of the correct behavioral terminology in the 
course is uniquely intensive. To date, canine detection has been 
practiced at more of a craft level than a technology. The purpose in 
our focusing on teaching handlers basic behavioral principles and its 
associated technical language is to move canine detection in the 
direction of a technology. Handlers equipped with a basic understanding 
of behavioral principles and consistent technical language are better 
armed to maintain the performance of their dog and communicate 
meaningfully with their colleagues and instructors in diagnosing and 
correcting performance problems. Our explosive detection course is 10-
weeks long and our drug detection course is 6-weeks long. Both include 
extensive training in operational environments and conclude with 
realistic scenario based evaluations and video--taped certification of 
operational competence.
    Auburn welcomes and supports the establishment of national best 
practice guidelines for training, evaluation, certification, and 
operational practices in canine detection. Best practice guidelines are 
critically needed to reduce the extreme variability in the quality with 
which canine detection is practiced. Such guidelines will also provide 
a common set of technical and operational terms to aid communication 
across practitioners. Perhaps the most immediate importance of such 
guidelines is to make it possible for the Department of Homeland 
Security to identify and maintain a database of canine detection teams 
and their specific operational capabilities for effective utilization 
of local, regional, and federal canine detection resources in response 
to terrorist threat situations and critical incidents. Such guidelines 
must accommodate the diverse operational missions of different 
agencies. Therefore, we prefer the concept of guidelines, which may 
provide the basis for ``standards'' promulgated by a specific segment 
of the responder community or certification of an agency of the Federal 
Government to conduct particular tasks, as opposed to overarching 
``national standards or certifications'' to which all applications 
under all circumstances must comply. Auburn has encouraged the 
development of the Scientific Working Group on Dog and Orthogonal 
Detectors (SWG DOG), which had its first meeting this month. This 
scientific working group (SWG) follows in the tradition of other 
successful working groups sponsored by the Department of Justice, such 
as the ``SWG on DNA Evidence'' and ``SWG on Finger Printing'' as well 
as the ``Bomb Squad Commander's EOD Technician Training Guidelines''. 
Auburn was honored to have 3 members (more than any other agency or 
institution) chosen to serve on the 55 member SWG DOG committee: Paul 
Waggoner (Unification of Terms and Research & Technology sub-
committees); Robert Gillette (Breeding and Dog Care & Physical 
Conditioning) and; John Pearce (SWG Executive Committee Member, Chair 
of the Handler Selection & Training sub-committee, and Certification 
Procedures sub-committee).
    Instruction of handlers at the Training Center is also enhanced by 
affiliated subject matter experts at the University. For example, 
instruction regarding canine health, fitness, feeding, housing, and 
first aid is under the guidance of Robert Gillette, Professor of 
Veterinary Medicine and Director of the Sports Medicine Center within 
Auburn University's College of Veterinary Medicine. Dr. Gillette also 
serves as the primary veterinary consultant to the Center's detector 
dog breeding activities. Auburn's program is also unique in that its 
operational training program is monitored internally by an 
Institutional Animal Care and Use Committee and externally by the U. S. 
Department of Agricultural as mandated for University's by the Animal 
Welfare Act. Our R&D, training, and breeding activities the approval of 
and our housing and veterinary care of dogs is overseen by the Auburn 
University Institutional Animal Care and Use Committee and is monitored 
for compliance with the Animal Welfare Act by the U.S. Department of 
Agriculture.
    The varied experiences of Auburn's Canine Program staff and R&D 
support allow the Auburn program to rapidly develop new applications 
for canine detection. For example, the AU Canine program conducted 
research, developed training procedures, and supported the Department 
of Energy in fielding the first ever operational chemical warfare agent 
detector dog teams. Our current development and prototyping efforts 
focus on applications of immediate relevance to homeland security and 
force protection. One of these is person-screening for explosive 
material particularly in the mass transit theater. The appropriately 
prepared dog and handler team can effectively screen large numbers of 
persons and their carried items entering or exiting a mass transit 
theatre with little to no retarding of the flow of transit users, which 
is a significant concern regarding instrumental detection devices. 
Additionally, extensive observation of an Auburn trained operational 
detector dog person-screening team in the Metro Atlanta Transit system 
across the last 6-months suggests that very few people consider 
screening activities by a Labrador Retriever handled by a uniformed 
Transit Authority officer to be threatening or intrusive. Other 
applications being prototyped involve several remote and relatively 
autonomous detector dog operations. For example, remote screening of 
vehicles and their occupants by dogs with the handler or operator being 
hundreds of yards in distance from the vehicle provides a safer stand-
off distance for officers in the case vehicle check points. We are also 
collaborating with AU Engineering in developing inertia enhanced global 
positioning systems and remote command issuing / reporting equipment 
with which to equip dogs for non line-of-sight applications such as 
building searches, search and rescue, long-range autonomous tracking of 
persons and surveillance for intruders along perimeters of critical 
infrastructure and for border protection. In such remote and autonomous 
applications, the dog can also serve as a highly mobile and adaptively 
directed platform for sensors, cameras, and listening devices. Auburns 
canine program's ability to engineer the behavior of dogs for such 
applications has the potential to provide for many innovative 
applications for dogs that support homeland security and force 
protection.
    In addition to serving as a conduit for technology transfer to the 
detector dog user community and a vehicle for infusing established 
behavioral science into the craft of detector dog training and use, 
part of the vision of the Training Center was to provide a needed 
resource for high-level detector dog team (i.e., dog and handler) 
instruction to state, local, and private law enforcement/security 
agencies as well as federal agencies that did not have inherent 
training programs. Furthermore, as a program with no operational 
mandate, an eclectic instructional staff, and R&D capabilities, to 
provide a resource for specialized mission curriculum development and 
novel applications of canine detection. To that end, our customers to 
date have included the following:
    U.S. Department of Energy and Wackenhut Services: Chemical warfare 
agent R&D, proof of concept canine training and testing, handler 
instruction, and operational deployment support
    U. S. Customs Service: Technical support of prototype chemical 
agent detection training program on--site at McClellan.
    U.S. Coast Guard Office of Law Enforcement: Designed maritime 
operations curriculum and training program, trained first 10 new USCG 
service-wide unified canine program detector dog teams, assisted in 
development of USCG Policy and Procedures for detector dog program and 
performed after-deployment evaluation and program guidance.
    U. S. Secret Service Technical Services Division: Trained prototype 
explosive detection person-screening dog and conducted test and 
demonstration of person-screening capability
    Metro Atlanta Transit Authority: Developed curriculum and training 
procedures specifically for screening persons and their hand-carried 
items for explosive material in a mass transit theatre of operation. 
Have trained 2 person-screening detection teams for MARTS and 
anticipate the training of 2 additional teams
    Federal Protective Service, DHS: Developed specialized curriculum 
and training program. Over 50 Federal Protective Service detector dog 
teams have been trained to date. Re-evaluation and re-certification of 
nearly half of those teams has also occurred.
    Australian Customs Service: Trained two chemical warfare agent 
teams and consulted in development of Australian Customs Service 
firearms detection training program.
    Customs Service of the Territory of the Mariana Islands: Trained 
their first and only 4 explosive detector dog teams
    Local Law Enforcement: Trained several local law enforcement 
explosive and drug detector dog teams. In all but one case, this 
training and dogs has been done for free or significantly subsidized by 
Auburn University
    Private Security Firms: Have provided trained dogs and other 
services to two of the Nations preeminent private detector dog 
services: Explosive Countermeasures Inc., which has several Government 
(e.g. IRS, Holocaust Museum) and DOD (e.g., Pentagon Perimeter 
Security) contracts: Wackenhut Services DOE Security Operations and K-9 
Search on Site, both of which provide detector dog services for DOE 
National Laboratory Sites (e.g., Savannah River, Oak Ridge, Sandia, Los 
Alamos).
    Several of our graduate detector dog teams have excelled in their 
operational missions. For example, two AU trained USCG teams from 
Seattle have assisted the ATF and local law enforcement in recovery of 
bombing making materials on two separate occasions by finding materials 
not able to located by physical searches. All of the 7 local area law 
enforcement drug detection teams we have trained have had multiple 
significant finds of illegal drugs. One of our FPS trained teams 
interdicted prohibited propellant (concrete nail gun ammunition--
smokeless powder) material in the trunk of a vehicle during routine 
vehicle screening at the entrance to a Government building parking 
garage in D.C.
    Despite these success and advances, maintaining both R&D and 
Training Center capabilities have been a challenge for Auburn 
University financially due to insufficient volume and consistency of 
R&D and training service income. Auburn has endeavored to provide a 
critically needed resource for enhancing canine detection to support 
homeland security. Attention to enhancing canine detection resources, 
capabilities and innovative uses of canine detection has been 
disproportionately low given its immediate potential to support 
homeland security particularly in relation to the to the extensive 
attention and associated funding allotted to the development and 
fielding of instrumental detection devices. In particular, state and 
local law enforcement are unable to afford services at the level 
offered by Auburn or most other credible training services, thus canine 
detection, the most readily available tool for their use in detection, 
is relegated to lowest bidder; and subsequent to 9/11 the number of 
such low bidders expanded significantly. The cost of training a 
standard explosive detection team (including provision of a dog) at 
Auburn is currently $13,800 not including lodging and per-diem for the 
trainee. Some of our Government contracts require certain guarantees on 
dog health and performance, as well as additional elements of training 
that increase our typical costs for Federal customers to over $14,000. 
Drug detection team training cost $12,800. This price schedule reflects 
Auburn's actual cost for performing this work including all the 
overhead, maintenance at McClellan and administration. In order to 
impact the practice of canine detection at the level of state and local 
law enforcement, Auburn has subsidized detection team training for 
state and local law enforcement by 10%; 20% for law enforcement 
agencies in Alabama.
    We offer high quality training at a relatively low price because of 
Auburn's requisite non-profit business model as a State, Land-Grant 
University. In comparing these prices to quotes of training costs at 
Federal Agencies, it is important to consider whether agency quotes 
truly reflect the extant overhead expenses required to conduct their 
canine program including administrative costs. It is our opinion that 
any equal comparison will necessarily support our contention that our 
prices are very modest for the level of training and quality of 
facilities provided.
    Auburn currently can train about 36-detection teams per year. Owing 
to nearly 100% retention of previous customers for re-evaluation, re-
certification, canine program manager seminar attendees, and additional 
canine team training, we are nearing maximum utilization of this 
capacity, thus reducing our present ability to take on new customers 
for our service. Auburn University has invested on the order of $5 
Million of non-federal funds to provide for personnel support and 
infrastructure development to reach this current capacity. However, 
Auburn has the institutional capacity to rapidly ramp up personnel and 
facility resources at McClellan to accommodate at least double that 
capacity within 6-months or less given external support.
    Despite significant advances in electronic sensors, the use of 
detection dogs is widely regarded as the most capable tool for the 
interdiction of hazardous materials such as explosives (1993, Office of 
Technology Assessment, U.S. Congress). Dogs are known to be capable of 
detecting concentrations of an odor at least as low as 1-part per 100 
trillion parts of clean air, which exceeds the capability of most 
operational chemical detection devices. Moreover, canines possess 
amazing olfactory acuity, are capable of operating in ``odor-noisy'' 
environments (i.e., capabilities are not easily perturbed by extraneous 
odors), and provide for interrogation of articles and large areas with 
rapidity unmatched by any other method of detection. Thus, well-trained 
detector dog and handler teams are vital for safeguarding the Nation 
against terrorism. However, canine detection is underutilized because 
of a limited number of competent training programs, a limited supply of 
high-quality dogs, and sparse funding of canine detection research and 
development. Auburn University's Canine Detection Program is uniquely 
capable and positioned to provide an asset responsive to all of these 
needs.

    Mr. Rogers. The chair recognizes Ms. Terri Recknor, 
President of Garrison and Sloan Canine Detection Company, for 
her statement.
    Ms. Recknor?

                   STATEMENT OF TERRI RECKNOR

    Ms. Recknor. Thank you very much for affording me this 
opportunity to speak in front of you all.
    As you know, we have all been talking about canines, 
whether it is the federal training programs by Auburn, and if 
there is two things I can stress before I start my speech--is 
one, we need a standardization in the private industry. The 
federal agencies have not come together to standardize their 
programs, and that is first and foremost before they can help 
us.
    But we really need a standardization in the private 
industry. And the reason we need this is my second point. We 
can partner with the federal agencies. We have been wanting to 
partner with the federal agencies. Every 2 years there is an 
international canine explosive meeting.
    Last year, it was held in New Orleans, and it was brought 
up to TSA and the other federal agencies that if there was a 
standardization in the private industry and there was some type 
of a terrorism incident and they had identified private 
companies that would meet or exceed their standards, they could 
call upon these private companies.
    And we at Garrison and Sloan have been working for a number 
of years to try and get a standardization because we really 
need it in this industry. So if I can stress anything, it is 
standardization and partnership.
    Unfortunately, my partner, Tony Guzman, is the trainer in 
this organization, and he was unavailable today, so hopefully I 
will be able to answer your questions.
    Since the terrorist attacks of 9/11, there has never been 
such a great need for canines ever before. It is unprecedented. 
And what we saw was after 9/11 that companies were begun and 
implemented overnight.
    Now, prior to 9/11, you saw mostly narcotics detection out 
there, because there was no need for explosive detection. So to 
fully train and certify an explosive canine team does not 
happen overnight.
    Let me emphasize at this point that, again, there is no 
national standardization. There is no national certification 
for private companies. When we state at Garrison and Sloan that 
we are a licensed company, what we mean is that we have an ATF 
license. We have a bunker at our training facility that houses 
explosives. We have been certified by the ATF.
    We also have a safe at our premises that has drugs that 
allows us to be certified by the DEA. We also have every state 
and local license that we need to operate.
    And it is interesting that my partner, Tony Guzman, is able 
to train the local agencies, various police departments, the 
state canines, but yet we are not permitted to work with them. 
So it is okay that we train them, we just can not work 
alongside of them, which I really do not understand.
    Another thing that we do that makes us unique in our 
industry, in the private industry, is that our dogs are all 
certified by the Florida International University. The reason 
this is so important is because there is no money to gain here 
on either side.
    A lot of the private companies train their own dogs. They 
use pseudo-explosives, which are dummy explosives, and they 
certify their own dogs. They do this because they could never 
pass a national certification.
    Florida International University has this program, and they 
have nothing to gain by it. We do not pay for it. If the dog 
fails, the dog fails. If the dog passes, he passes because he 
should pass. So I think that is important to note.
    And again, getting back to the formation of these companies 
after 9/11, many of them were formed overnight. And I can tell 
you, being in Miami, Florida, there was a huge need for dogs. 
We are the cruise capital of the world. And it was interesting 
to see how many companies just appeared after 9/11.
    And you have seen how hard the dogs here work no matter 
what agency they work for. You have heard Auburn talk about how 
long their training program is. You can not manufacture these 
dogs. You can not train them overnight, which, in essence, 
means you can not staff overnight and you can not help local 
companies, local governments or to protect the nation.
    With us, our dogs go through a rigorous training. And I 
think it is interesting to note, too, when we talk about where 
everybody gets their dogs from, all of our dogs are European-
bred. And you may ask yourself why Europe. The interesting 
thing about Europe is over there it is a sport.
    And also, it is expensive to buy these dogs. We do not have 
any domestic dogs. We do not go to the pound. We do not go to 
any private breeding source. We have looked at that, but the 
need has been so great that we go to Europe.
    My partner has been going to Europe for over 20 years. Six 
to eight times a year he goes to Europe. He has been dealing 
with the same top breeders in Europe, and they know him. They 
call and they say we are ready, we have dogs to look at. Tony 
just went to Europe I think 6 weeks ago and only brought back 
eight dogs, because the demand is so high.
    But the interesting thing is when he tests the dogs in 
Europe, we already know that they are good dogs. Our fail ratio 
once they dogs come back to Miami is less than 1 percent. And I 
am sure if you would ask that same question of all these 
federal agencies, they do not have that type of a number.
    Again, we pay for our dogs. And you had asked how much the 
dogs cost. Depends on where the euro is. I mean, we are at the 
mercy of the euro. Before 9/11, Tony could go to Europe and buy 
a dog for $1,000, $1,500. Now you are looking at $4,000, 
$5,000, $6,000 for a dog.
    And then you have to bring the dog back, and then you train 
the dog. We are fortunate in the fact that it is our company, 
so we can train at a higher ratio. We have dogs dispatched all 
over the country, and the different thing about our company, 
why we are trying to set such a high standard, is we do not 
employ civilians.
    Like other companies out there, rogue companies--and we can 
touch on the Russ Ebersols of the world--they will employ 
anybody that has a dog and say it is an explosive dog. Is it? 
No.
    I have been in the trenches since 9/11. I know every 
competitor I have, and I can tell you without a doubt we are 
the only company that has such a high standard that if you see 
our dogs work in Newark, New Jersey, New Orleans, L.A., all 
these dogs are not only trained on explosives but they are 
maintained on explosives.
    The people that work for us are off-duty canine officers, 
and we meet with the individual police departments and we get 
their chief's approval that we will give them our dog, and they 
will work for us, but they will also maintain our dogs with 
their explosives. Nobody else does this.
    What they will do is they may perhaps train a dog and then 
send it off to whatever, and use pseudos, or maybe nothing at 
all. And yet they expect these dogs to find explosives. I can 
not stress enough they can not find explosives.
    So one of the things that I know is kind of an underlying 
current here is are we keeping the public safe, are we doing 
what is right. I can only tell you no, we are not. They are 
trying. The federal agencies are trying, but they are--just 
like we heard today about what is going on with FEMA and 
everything, this is the first time in 4 years that we have sat 
like this.
    I have gone to every meeting where they will let me speak, 
and I tell the people if you are interested in employing a 
canine company, go to their facility. Chances are they do not 
have a facility. Everything on their web site is bogus.
    We contacted ATF. We contacted DEA. Because if you go on a 
Web search, you will find all of these home pages that have the 
DEA license and the ATF license. It is bogus. They put it 
there, and people assume that if it is there, they must be 
licensed. Maybe what they have done--what we have seen with a 
lot of companies--is a company, say, in Houston will say that 
it is ATF-licensed. Well, it is. It has paid some company in 
Chicago to use their license.
    So, really, how do they maintain these dogs? Perhaps they 
have trained the dogs in Chicago, shipped them off to Houston. 
They are not maintained. And as my partner would say if he was 
here, these dogs could not find a fat man in a phone booth. Not 
possible.
    We need standards, and we need to work with the federal 
government to do this. And I commend all of you for doing this. 
Auburn has a great program. And I commend them for trying to 
breed these dogs. We do not have the time with our company to 
breed dogs. We would rather pay top dollar, have a dog that 
works unbelievably long hours.
    And something that is different about our teams than the 
federal teams is that when we work at the seaports--and 
Congressman Meek, I met you last year when we were at the Port 
of Miami. We work exclusively with Royal Caribbean and 
Norwegian Cruise Lines all over the country and basically all 
over the world.
    And the thing that is different about our teams at the 
port--we have one handler and two canines. What this allows us 
to do is we alternate canines. We put pallets down. There could 
be 20 pallets, could be 10 pallets, whatever we do. One dog 
searches and then it rests. While that is resting, the second 
dog searches, so there is no down time.
    An average day at the port for us is anywhere from 250 
pallets to 400 pallets. We do not slow down commerce. We do not 
do anything. We are actually the quickest way you can screen 
cargo. It is proven. They have tried the machines, swabbing, 
going over testing. You have got to calibrate those machines.
    The dogs work because they love to work. They are not 
calibrating anything. They do not take sick days. They do not 
take lunch breaks. We train on the toy method, which is that 
little hose you saw. They either get the hose or the Kong, that 
little red toy. All they want to do is find that toy. The do 
not want to eat. They do not want to play with a towel. They 
just want the toy.
    So what we do when we work at the ports--and I think 
Congressman Meek saw this--is we plant hide, and what that 
means is we cut a little hole in the plastic on one of the 
pallets and we place smokeless powder, and we walk the dog 
around, and we let him find that hide. Then he gets his toy, 
and he is happy and he is ready to work.
    Machines do not do that. Machines break down. Machines are 
costly. Our dogs work because they love it, and they love it 
because they have been bred to love it and because it is a 
sport in Europe.
    We also have been fortunate enough to work with FedEx at 
some of the airports. FedEx primarily mandated dogs for the 
narcotic industry. But when you think about feed, if FedEx has 
one plane leaving early or leaving late, it costs them millions 
of dollars.
    So I just would like to stress to you that if we are good 
enough to work for the cruise lines in all the major seaports, 
and we are good enough to work for a major air cargo company, 
then I think it is time to look at the private industry for 
supporting the federal agencies.
    At our kennel we have many dogs. We have actually ramped up 
for these dogs. So we can help. And if I can stress anything, 
we really need to partner. Thank you very much.
    [The statement of Ms. Recknor follows:]

                  Prepared Statement of Terri Recknor

    My name is Terri Recknor. I am the President of Garrison & Sloan, 
Inc., a Canine Detection Company based in Miami, Florida. My partner 
Tony Guzman was scheduled to appear before you today is unfortunately 
dealing with a number of family issues and cannot be here. My partner 
is also the President of Metro-Dade K-9 a canine facility specializing 
in the training of canines and handlers for state and local law 
enforcement. Mr. Guzman has been training and working with canines for 
over 24 years.
    Since the terrorist attacks of September 11, 2001, there has been 
an unprecedented need for explosive detection canines, both in law 
enforcement and the private sector. Prior to 9-11, there were very few 
private canine detection companies. The majority of those companies 
worked exclusively in narcotics detection. Garrison & Sloan is unique 
in that it was one of the few canine detection companies that had an 
extensive inventory of fully trained and certified explosive canine 
teams.
    Let me emphasize that, at this point, there is no national standard 
for the licensing and certification of private industry explosive 
detection companies. When we state that our company is licensed and 
certified, it means the following. We posses a Federal Department of 
Justice, Alcohol Tobacco and Firearms (ATF) license for explosives, 
Drug Enforcement Administration (DEA) license for narcotics and all 
state and local licenses to train and certify our explosive and 
narcotic canines. Our canines are independently certified by Florida 
International University. In addition, to my knowledge we are the only 
privately-owned company in the United States to have it's explosive 
canines certified by the Department of Defense.
    Immediately following 9-11 the need was so great for explosive 
detection canines that private detection canine companies were formed 
overnight. Many of these companies that were formed overnight claimed 
to have fully trained canines. It should be noted for the record that 
the average time it takes Garrison & Sloan to purchase a canine, train 
and certify an explosive detection canine is usually a minimum of 5 
months. The fact of the matter is a newly formed canine detection 
company that is properly licensed and certified cannot be fully 
operational for months.
    I would be the first to admit that because of the lack of a 
national standard, our industry has been seriously tainted by a number 
of fraudulent companies. Within the last two years, a private company 
in Virginia working for the Federal Government was indicted and found 
guilty for fraudulent canine services. Their canines were tested with 
explosives and did not alert. The owner was convicted and is currently 
serving time in a federal prison.
    It should also be noted that as a general rule most Federal State 
and Local Governmental agencies will not contract with private industry 
canine companies. Once again, it is my opinion that the reason for this 
is the lack of a national standard and the potential liability that 
would be attached by the governmental agency if the dogs should fail.
    Today it is my understanding that TSA, Customs and Border 
Protection Bureau, and the ATF collectively have no more than 1,700 
trained canine teams in the United States. The majority of the TSA 
teams are located at the major metropolitan airports while the CBP 
teams are located along the U.S. borders. If one were to do the math, 
the number of federally trained canine teams would amount to 
approximately 35 per state. Given the most recent events of the train 
bombings in Madrid, Spain and London, England, I do not believe that 
this amount of dogs is anywhere near sufficient to protect our 
airports, seaports, subway systems, train station's and our national 
treasures.
    In order to make an argument as to why governmental agencies should 
use properly licensed and certified private canine companies I would 
like to tell you how we obtain, train and certify our canines. My 
partner Tony Guzman travels to Europe 6--8 times per year to purchase 
canines. He deals with well-established breeders throughout Europe. Why 
Europe? Europe is known for breeding the finest working dogs in the 
world. Once a dog is chosen by our company he must go through a 
rigorous 12-week training course. Our canines are trained on real 
explosives and real narcotics, which we obtain legally. ATF has very 
strict policies that must be adhered to before granting a license. Upon 
completion of training our canines must be certified. Our certification 
process is conducted by an independent entity--The Florida 
International University. After training and certification our canines 
must be tested weekly with explosives and narcotics to keep their level 
of proficiency at maximum performance. You should also be aware that it 
is our opinion for efficiency and effectiveness purposes that canines 
should not be dual trained. By that I mean our explosive canines are 
only trained on explosives and our narcotic canines are only trained on 
narcotics, we do not cross-train.
    Unfortunately, what I described to you is not the norm in our 
industry, it is the exception. The actual norm in our industry is that 
XYZ Company either purchases a dog from wherever it can find one or it 
goes to the local pound. Most Customs and Border Patrol dogs, for your 
information come from animal shelters, humane societies and rescue 
operations as reported in the Government Executive magazine dated 
September 1, 2005. Since most private industry companies cannot afford 
or legally possess an ATF license, they purchase pseudo (substitute) 
explosives. The canine is then trained on pseudo explosives and the 
trainer allegedly certifies the dog himself. These dogs cannot go 
through an independent legitimate certification process because they 
would fail.
    Another scenario that we see in our industry is that canine Company 
A pays an ATF certified canine Company B to utilize their ATF 
certification. Company A is located in North Carolina but uses Company 
B's license which is located in California.
    In the past four years we have seen every type of rogue canine 
company imaginable. Quite possibly, a national standard is still years 
away but there are steps that can be taken now to ensure the integrity 
of private industry canine detection companies. These steps include 
greater oversight by ATF and DEA in the licensing and certification of 
private canine detection facilities. A quick look on the Internet and 
you will find all types of canine companies that market their services. 
You will also see that these companies represent that they posses an 
ATF or DEA license. When a prospective client researches these 
companies they ``assume'' what is printed on the website is fact. 
However, for the most part, it is fiction.
    While the Federal government today, principally TSA and CBP do not 
use private industry canines, I would respectively request, given the 
shortage of canine teams throughout the United States, that private 
industry canine teams who could meet or surpass the standards set by 
these government entities be permitted to be hired by the federal 
government. Should our canines fail to meet the same standards as that 
of the government then we should be released from the contract. 
However, it is my earnest belief that our private canine teams could 
meet and exceed the standards set by the federal government.
    In addition to the above I would like to advise you that after 9-11 
the cruise line industry was the first to step up and hire private 
canine companies. Royal Caribbean and Norwegian Cruise Lines were at 
the forefront in their industry. They set the standard of insuring that 
all goods loaded on board their ships were screened by explosive 
detection canines. Last year, this committee, which was chaired by 
Congressman Cox, watched our company demonstrate the screening process 
for Royal Caribbean at the Port of Miami. This Committee observed how 
quickly a dog could screen a row of pallets to insure that no 
explosives were present. At that demonstration Congressman Cox asked me 
why dogs were not being utilized at airports. My answer then remains 
the same as it is today, and that is ``private canine companies are not 
permitted by TSA to screen cargo at the airports.''
    All too often we watch on the nightly news how airline cargo is not 
screened and how our subways and train stations are not appropriately 
searched by explosive canine teams. The general consensious is that it 
would be too expensive and time-consuming to search all the cargo being 
loaded onto a plane and or packages and individuals boarding subways 
and trains. Perhaps this is true with electronic searching devices. 
However, canines could facilitate this screening process in a fraction 
of the time and for a fraction of the cost compared to utilizing 
mechanical testing equipment.
    You should also be aware that in addition to screening for the 
cruise lines, we are fortunate to work exclusively for Federal Express. 
Like Royal Caribbean and Norwegian Cruise Lines, FedEx is a leader in 
their industry. Shortly after 9-11 FedEx hired us at numerous airports 
around the country to screen packages being loaded on their aircraft. 
They chose explosive canines for their thoroughness, accuracy and 
speed. As you know FedEx is all about speed but they have not forgotten 
about security.
    Screening air cargo by private canine detection companies could be 
managed the same way that cruise line cargo and FedEx packages are 
screened.
    We appreciate the opportunity to testify before you today. While 
our industry needs national standards and increased oversight of those 
standards, we welcome the opportunity to work along side and with our 
federal state and local government counterparts to ensure the safety 
and security of our nation. I do not believe at the present time that 
the level of qualified and certified detection teams at the federal 
state and local level are sufficient to protect the facilities that 
need to be screened. I would be pleased to answer any questions that 
the committee has and once again I thank you for the opportunity to 
testify before you today.

    Mr. Rogers. Thank you.
    And I would like to start off with a few questions.
    Chief Wilson, I am curious. You said that you use dogs from 
TSA and Auburn. How did you choose those two sources?
    Chief Wilson. When we started first, Mr. Chairman, we 
looked at the dogs that were available. We really got down and 
we liked what we found with the TSA dogs, not only on how they 
were trained, how they train the trainer, but the fact that 
they have to be re-certified, and that is something we thought 
was important.
    We just did not get the dog in and get it there. The 
trainer and the dog have to be re-certified.
    Mr. Rogers. How often?
    Chief Wilson. Every year. And if my trainer, if my officer 
that is handling the dog--if they are not re-certified, I put 
him back in regular patrol and the dog goes back to TSA.
    Mr. Rogers. How many dogs do you have in service?
    Chief Wilson. Right now I have a total of eight dogs, six 
of which are TSA. Two are Auburn.
    Mr. Rogers. How many do you need?
    Chief Wilson. I would like to have a total of 20 dogs.
    Mr. Rogers. Do you pay a flat rate to get these dogs? How 
much do they cost?
    Chief Wilson. TSA--they furnish the training, they furnish 
the dog. They also furnish about a $40,000 a year supplement 
for equipment such as the vehicle, the officer's salary, vet 
bills, food, et cetera.
    Auburn, right now we are pretty much paying the full load 
now. We have done it through funds for ODP, but it is about 
$95,000 the startup year because you have got to buy the 
vehicle and all of that stuff.
    Mr. Rogers. Okay.
    Dr. Moriarty, you talked about your capacity. What is the 
capacity currently at McClellan for training and what could it 
be ramped up to?
    Mr. Moriarty. Currently our capacity is to train 36 dog-
handler teams a year. We can ramp up and double that in less 
than 6 months.
    Mr. Rogers. And would you then be at maximum capacity in 
that facility?
    Mr. Moriarty. No, what we are saying--our anticipation is 
to provide an additional kennel which would take us up to about 
128 dog-handler teams a year.
    Mr. Rogers. A year. And where do you get your dogs?
    Mr. Moriarty. We breed a good deal of ours, as we 
mentioned. We do have a domestic supplier. We do have a dealer 
in the Netherlands for European dogs. And the concern, of 
course, is that it would be unusual if the Europeans are giving 
us their top dogs. I think they would be tending to keep their 
top dogs for their own use. They are good dogs, there is no 
doubt about that.
    But also, if this is looked at as a national resource, the 
ability to provide canines for our domestic needs, then it 
seems to me that there should be some attention given to 
breeding and providing our own canine population.
    Mr. Rogers. That was one of the things that disturbed me 
when I went to the Mexican border, and when I was in El Paso, 
and I found out that they got almost all of their dogs--well, 
not all, but a large percentage from Europe. And I heard Ms. 
Recknor talk about getting hers from Europe.
    And I just want to know why do we not have greater capacity 
here to breed our own lines? Before the demonstration a little 
while ago, I had the fellow with one of the dogs--it was a 
Belgian something.
    Ms. Recknor. Malinois.
    Mr. Rogers. Yes. And he was with CBP, and he was telling me 
that the bloodlines were much more pure over there. My question 
is can we not establish the same kind of lines over here and 
create breeding programs that are domestically controlled and 
not have to rely on European sources? And if not, why not? And 
if so, what would it take?
    Mr. Moriarty. Mr. Chairman, I think we can do that. I think 
part of the reasons why we have not done that in greater 
capacity is that the needs have been so great, the demand has 
been so high, that to meet the demands you have to acquire the 
dogs as conveniently as you can in order to address the current 
issues.
    But I would again pose that long term we should have our 
own supply of high-quality dogs.
    Mr. Rogers. Do you have a breeding program in your--
    Mr. Moriarty. Yes, sir, we do, using the Australian customs 
dogs, an elite breed that is highly skilled for detection.
    Mr. Rogers. How many can you produce a year?
    Mr. Moriarty. We have had 21 litters so far, and we can--I 
would have to ask my colleague how many we could get per year. 
We could get up to 100 working dogs per year in the breeding 
program.
    Mr. Rogers. That you currently have?
    Mr. Moriarty. Yes.
    Mr. Rogers. Could it be expanded to--
    Mr. Moriarty. Yes.
    Mr. Rogers. --include these Belgian dogs?
    Mr. Moriarty. The Belgian Malinois. Yes.
    Mr. Rogers. And what would it require? What kind of 
commitment from DHS?
    Mr. Moriarty. The issue is twofold. We would have to expand 
the infrastructure to accommodate these animals, and then 
basically--we are a non-profit. We are a university. We are a 
501(c)(3). We do not have the profit motive, but we do have 
full costs that we have to recover.
    It would be the dependence that we would have an ongoing 
partner with the federal agency who would be utilizing these 
dogs.
    Mr. Rogers. Okay.
    Ms. Recknor, who do you think would be the appropriate 
entity to establish the certification criteria for all these 
dogs?
    Ms. Recknor. That is a very interesting question, because 
when you looked at the three federal agencies that were here, 
everybody does something different. So I think it?
    Mr. Rogers. And they all think they are right, too.
    Ms. Recknor. Yes. One thing I have learned--I do not come 
from a canine background. The canine people are a unique breed 
unto themselves because they truly believe that their way is 
the best way. And they are right that their way is the best way 
for them. But it is all over the board.
    I think what needs to happen is I think the federal 
agencies need to come together with private entities such as 
ours and really work at a standardization. I can tell you that 
our dogs' standards for certification are much higher than what 
is average for the federal agencies, only because we are 
working under extreme duress at the ports.
    Most of the dogs we have are the Belgian Malinois, and they 
work harder than most federal agency dogs because they are in 
the heat and they are working full 8-hour days.
    Mr. Rogers. But what I am hearing you say is that you think 
TSA, Border Patrol, ATF, as well as private entities such as 
yours, should collaboratively work to decide what entity would 
set the criteria--
    Ms. Recknor. Yes, sir.
    Mr. Rogers. --or what the criteria should be?
    Ms. Recknor. Yes, sir, I do.
    Mr. Rogers. What entity.
    Ms. Recknor. What entity.
    Mr. Rogers. Okay. My time has expired.
    I now yield to my colleague from Florida for any questions 
he may have.
    Mr. Meek. Thank you all.
    Ms. Recknor, I want to ask you a question. You started 
talking about quality, and I think that is important, because I 
know the demand--and Chief, I know that you are going to, as 
they bill--what do they call it, MARTA?
    Chief Wilson. Yes, sir.
    Mr. Meek. Okay. As they bill your rail system and you start 
to expand, you are going to need--there is going to be more 
demand. And I was kind of leading to this on the other panel of 
the cost savings or the cost savings by using--I call them 
officers, but--canine officers, by using them versus the 
personnel.
    And if you could answer the question, and then, Chief, you 
can come in behind her, Chief Wilson, by just talking about 
some of the personnel issues, because in times outside of a 9/
11 kind of thinking, your budget got getter after 9/11.
    I mean, you did not have to fight as hard as you used to 
fight, I am pretty sure, for resources or what you needed. But 
now after 9/11, not only are there more federal resources, 
there are also state resources, I am pretty sure, in the 
counties that you operate.
    I am saying that to say that I believe, again, by doing a 
good job we may run into times again where resources will be 
hard to come by. But to jeopardize quality is an issue, and I 
think something is very, very important to all of us as we 
start looking at protecting America.
    The federal agencies that are doing in-house training and 
providing dogs I know cannot provide--well, canine officers 
cannot provide and reach the demand alone. I mean, the private 
sector has to play a role in it.
    And like the chairman said, we have to have standards. You 
advocated we have to have standards. Just can not put up a sign 
and say we are in business to do business.
    Ms. Recknor. Right.
    Mr. Meek. We are more into supply and demand, but that 
quality thing is far in the background, because our lives are 
dependent on it.
    So to sum it up, A, if you could address the issue of a 
possible way that the private sector can play a role in the 
issue of helping local law enforcement have more of a variety 
of what kind of canine dogs that they need, and the officer 
that they need.
    And, Chief, if you can address the issue as it relates to 
the personnel. Using the canine detector officers, the dogs 
that I am speaking of--I know when you say canine officer, you 
think of a person. But I used to be a state trooper, and I see 
these canines as officers. They are a part of what we do.
    Personnel-wise, has it made a difference as it relates to 
staffing? You say well, I need 10 transit officers here, but 
no, we have a canine there, we have two canine teams working 
there, we actually only need six to carry out the mission that 
we need.
    Ms. Recknor. I think to answer the subject of quality, the 
good thing about Garrison and Sloan is that Tony Guzman also 
owns Metro Dade Canine, and he is a training facility. So there 
is always--I do not want to say an abundance, but Tony always 
has a lot of trained dogs, because he sells them to law 
enforcement.
    He sells to the police departments all over the country. So 
when you look at quality, we have excellent quality dogs, 
whether it be Metro Dade waiting to be sold--and some of them 
we buy because we know the quality of our own dogs.
    And it has been interesting. Some of the departments that 
work for us on a subcontract basis have wound up purchasing 
Tony's dogs because of the quality that they have seen.
    So when it comes to quality, the private sector--again, 
once there is standards--I can tell you the quality of our dogs 
is second to none in this industry. But I can not say that 
about other private companies.
    Mr. Meek. And so let me--I am sorry to cut you off, because 
time is limited. So I guess your testimony would be if we get 
into the business of introducing the private sector into 
playing a role in the Department of Homeland Security's mission 
in protecting America that, A, there should be a level of 
standards and certification or a private, quote, unquote, 
trainer, training facility or training company to make sure 
that these dogs, these canine potential officers, are up to 
par, that it is not something that folks get a--I mean, someone 
goes out and gets incorporated and then--
    Ms. Recknor. Right.
    Mr. Meek. --they are selling dogs to law enforcement 
agencies, and we expect for them to be able to detect 
explosives or what have you.
    Ms. Recknor. I think one of the reasons why the federal 
agencies have not partnered with private companies is because 
they know of all the rogue companies that exist. And I can not 
blame them. I go up against them every day for contracts with 
private companies.
    And they undercut us because they go to the pound, they get 
their dogs, and they use pseudo-explosives. We pay top dollar 
for the dogs and top dollar to maintain them. So I think once 
the standard's in place, you will see the federal agencies 
welcome, hopefully, the partnership.
    Mr. Meek. Thank you.
    Chief?
    Chief Wilson. Representative Meek, what has happened since 
9/11 is that there has been additional resources that has 
flowed toward transit. But internally in transit, because the 
economy slowed, that our budget actually was cut.
    And the way I have staffed the canine positions is I have 
taken officers from the regular patrol force and put them in 
the canine function, at the cost of lowering the number, 
reducing the number, of patrol officers.
    And I have been able to live with it to about where I am at 
this point. What has happened is the time to train the canine 
handler and to retrain them has taken away from my day-to-day 
ability to patrol and answer calls, and all those things that 
you know from being a trooper that you just have to do.
    What would help me now is not only the availability of 
getting good certified dogs that I will be willing to bet 
people's lives on, but also a way to fund the staff to support 
those dogs. And when I say 20 more dogs, I am at eight right 
now. We are going to try to push to 10.
    But at that point, I just can not go any further because I 
have not got any other staffing for the police department. In 
fact, I have lost staffing. Since 9/11 I have actually reduced 
the size of the department by 15 people, plus the people I have 
taken out of patrol to put into dog handling capabilities. I 
hope that answers your question.
    Mr. Meek. It did. And I am glad you are dealing with it 
every day. I am glad that you are a part of this panel.
    I mean, with that, Mr. Chairman, I have no further 
questions. But I believe that as this program, Mr. Chairman, 
continues to get more and more popular and useful to law 
enforcement in helping us protect America, standards is going 
go be important.
    We can not legislate morals and character, but we can 
definitely legislate standards. If private companies or public 
facilities such as our own in-house federal training areas--if 
they have to reach certain standards, too, they should be the 
same.
    Mr. Rogers. Right. I thank the gentleman.
    I would like to address the same question to the Chief and 
Dr. Moriarty that I did to Ms. Recknor, and that is who do you 
think the appropriate certification entity is or should be?
    And, Chief Wilson, you first.
    Chief Wilson. From my knowledge of working with these 
programs since 1998, I think the appropriate agency would be 
the TSA. I think the TSA dogs are--in my opinion, the re-
certification is very important.
    But I also think that as far as being high profile, in the 
public view and what they have been able to do, I would think 
it would be the TSA, sir.
    Mr. Rogers. Thank you.
    Dr. Moriarty, same question.
    Mr. Moriarty. It was my understanding that one of the 
missions of this scientific working group that was being 
established was to address the issue of standards. And I 
certainly agree with the chief that TSA has a lead role. 
Whether they should be the only player in that discussion I am 
having a little bit of a problem with.
    I think there should be a mix of those key agencies and 
representatives from quality programs such as the university 
and the private sector who should have a seat at the table to 
make sure the standards and the bar is high.
    Mr. Rogers. But you do think that there should be a uniform 
set of standards?
    Mr. Moriarty. Absolutely, no argument. Absolutely.
    Mr. Rogers. Okay. And you think that it may be some entity 
that has yet to be fashioned that would establish those 
standards?
    Mr. Moriarty. I do not know enough on that one, Mr. 
Chairman, to answer.
    Mr. Rogers. All right. I would like to ask you, Dr. 
Moriarty, about the cost of your dogs. For you to breed dogs, 
what does it cost?
    Mr. Moriarty. Okay. It depends if we are training, for 
example, a drug dog or an explosive dog. Explosive dogs, having 
longer training, is a little bit more expensive. The cost of 
that is about $14,000.
    Now, that is full cost. That includes the direct costs of 
training. It includes the overhead. It includes the 
administrative costs. So it is full cost accounting. But that 
is for a 10-week program.
    Mr. Rogers. Of breeding?
    Mr. Moriarty. Well, that includes the breeding. It includes 
the dog and the canine handler training.
    Mr. Rogers. If Ms. Recknor wanted to purchase a dog from 
you, how much would it cost?
    Mr. Moriarty. Just purchase a dog without the training?
    Mr. Rogers. Correct.
    Mr. Moriarty. $3,200 to $3,600.
    Mr. Rogers. And how does that compare to what you are 
paying in Europe, Ms. Recknor?
    Ms. Recknor. Actually, it is pretty close for a dog that is 
1.5 years to 2 years and ready to go.
    Mr. Rogers. But now, yours will be trained.
    Ms. Recknor. Ours are trained just on the seek methods. I 
mean, we already know that they are going to work because Tony 
tests them all over there, so we already know that they are 
going to work.
    Mr. Rogers. Okay.
    And last question, Dr. Moriarty--we have got to be out of 
here for another hearing that is going to be in this room in 
about 6 minutes or 7 minutes. Which do you think is the higher 
priority at your facility? Is it growing the breeding program 
or growing the training program?
    Mr. Moriarty. Well, it is hard to separate that. What we do 
best is breeding the animals and training them. We have a very 
highly trained--as I mentioned, 200 years of collective 
experience in our senior staffers.
    So I would not want to separate the two entities, because 
breeding the dogs and then distributing them for training 
elsewhere is a need, but I think the benefits to a university, 
particularly taking the research, putting that into the 
training, and then getting the lessons learned out of the 
training and pulling that back into research to find 
solutions--that is the value added that we bring.
    Mr. Rogers. Are there any other universities doing what you 
are doing?
    Mr. Moriarty. No, sir.
    Mr. Rogers. Okay.
    I want to thank the panelists. You all have been great. 
This has been very informative and helpful to us.
    I would like to remind the Members that if they would like 
to submit additional questions--and you may get some additional 
questions from Members that could not be here because of 
conflicts--we are going to leave the record open for 10 days.
    And if you could reply to those in written responses, I 
would appreciate that.
    And we would, again, ask that you exit quickly since we 
have to be out of here--me, too--for this next hearing.
    This hearing is adjourned.
    [Whereupon, at 1:54 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
